<html>
<title> - SAFER EMBASSIES IN UNSAFE PLACES</title>
<body><pre>[Senate Hearing 108-63]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-63

                    SAFER EMBASSIES IN UNSAFE PLACES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



88-151              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     3
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, statement 
  submitted for the record.......................................   101
Ford, Mr. Jess T., Director, International Affairs and Trade, 
  U.S. General Accounting Office [GAO], Washington, DC...........     4
    Prepared statement...........................................     9
Taylor, Hon. Francis X., Assistant Secretary of State for 
  Diplomatic Security and the Office of Foreign Missions, 
  Department of State, Washington, DC............................    82
    Prepared statement...........................................    85
    Responses to additional questions for the record from Senator 
      Biden......................................................   102
Williams, Maj. Gen. Charles E. (Ret.), Director and Chief 
  Operating Officer, Overseas Buildings Operations Bureau, 
  Department of State, Washington, DC............................    26
    Prepared statement...........................................    31
    Responses to additional questions for the record from Senator 
      Biden......................................................   107

                                 (iii)

  

 
                    SAFER EMBASSIES IN UNSAFE PLACES

                              ----------                              


                        THURSDAY, MARCH 20, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m. in room 
S-116 The Capitol, Hon. Richard G. Lugar (chairman of the 
committee), presiding.
    Present: Senators Lugar, Sununu, and Sarbanes.
    The Chairman. The hearing is called to order. Let me 
indicate that given the timing and circumstances, and to 
expedite the hearing, I will make an opening statement, and 
then Senator Biden will be recognized for an opening statement 
whenever he is able to come over here. At 2:45 my understanding 
is that the President of the United States will speak on the 
war, and so we are grateful for the monitor that you have 
provided or required for your testimony, because it will serve 
a dual purpose today, and it could very well be that by the 
time I have completed my opening statement, it may be time to 
turn to the monitor for the President's speech.
    Following the President, I will call upon our witnesses for 
their opening statements, and then we will have questions from 
committee members. And as you all understand, we have a 
vigorous debate going on on the floor and that is one reason 
for situating our hearing here, where people can be close to 
the floor for votes or other activity.
    We welcome you today. And today the Foreign Relations 
Committee gathers to discuss the security of our embassies 
overseas. With our military forces engaged in Iraq and the 
terrorism threat level raised to high, it is appropriate that 
we take up this subject.
    Terrorists who seek to harm the United States but who lack 
the means to directly attack our homeland have often shifted 
their focus to United States diplomatic posts overseas. Recent 
attacks on our diplomatic facilities in Karachi, Pakistan, and 
Kabul, Afghanistan, as well as the daily warnings sent to our 
posts throughout the world remind us that our diplomats are on 
the front lines in the war on terrorism.
    Being a United States diplomat today demands enormous 
courage and dedication. The murder of USAID executive officer 
Lawrence Foley last October in Jordan demonstrated the extreme 
risk that our diplomats encounter every day as they represent 
the United States. It is essential that the Congress, the 
President, and the State Department remain committed to 
protecting our diplomats and our government representatives 
overseas to the maximum extent possible.
    The 1983 and 1984 attacks on the United States embassy and 
the annex in Beirut and the horrific double bombing of our 
embassies in Kenya and Tanzania in 1998 led to the 
commissioning of the Inman report and the Crowe report by the 
State Department to examine the security needs of our 
diplomatic missions. Many of the recommendations contained in 
those reports remain integral parts of today's construction 
planning.
    Since 1998, the State Department has embarked on a long 
term project to replace rather than to merely upgrade many of 
our most vulnerable facilities overseas. The money set aside 
for replacing posts has grown from just $9.5 million in 1998 to 
an estimated $861 million for the current fiscal year. As we 
build new embassies, however, we have to recognize that we 
cannot turn our buildings into concrete bunkers that are 
physically and psychologically removed from the world capitals 
in which our diplomats must work. Indeed, many of our older 
embassies are located in busy urban areas close to streets.
    Achieving the goal of embassy security is complicated by 
the fact that an embassy's purpose is to facilitate contact 
with the host country. The task of securing embassies, 
therefore, will require great creativity, and the application 
of new technologies and better construction methods.
    Investments in embassy security are paying dividends. 
Throughout the world the State Department has worked closely 
with host countries to improve the security of our diplomatic 
missions. Although the suicide bombing in Karachi last June 
tragically killed 10 Pakistanis on the outside of the embassy 
and two Pakistani consulate guards, no one inside the compound 
was seriously injured thanks to prudent and timely steps taken 
to safeguard the building.
    While much has been accomplished, much obviously remains to 
be done. It is estimated that 80 percent of the State 
Department's overseas facilities do not meet the security 
standards that were recommended in the mid-1980s. Significant 
resources must be devoted to securing our embassies, even in an 
era of tight budgets and pressing security needs at home. This 
is important not only for the safety of United States 
personnel, but also for accomplishing the mission of the State 
Department. If we want to encourage senior Foreign Service 
officers, many of whom have families, to bid on hardship posts, 
we must ensure that our facilities are secure.
    It is a great pleasure today to welcome a panel of 
witnesses we have assembled to discuss the ongoing efforts to 
improve the safety of U.S. diplomatic personnel overseas. 
Testifying before us today will be Jess Ford, the Director of 
the General Accounting Office's International Affairs and Trade 
Division. The GAO has devoted an extensive study to the problem 
of embassy security, and it has been an indispensable resource 
on this subject for the Foreign Relations Committee, and we are 
eager to hear Mr. Ford's report.
    We are also most fortunate to have General Charles E. 
Williams, Director of the State Department's Bureau of Overseas 
Building Operations, and Ambassador Francis X. Taylor, 
Assistant Secretary of State for Diplomatic Security. The 
committee looks forward to hearing from General Williams and 
Assistant Secretary Taylor what has been accomplished over the 
past several years that they have witnessed, as well as what 
they judge to be the most pressing needs for the future.
    This concludes my opening statement and introduction of the 
panel. And as I say, we would at this point in the record 
insert Senator Biden's statement, so that that will be a part 
of the permanent record, and each of your statements will be 
published in full, so that you need not ask permission for that 
to occur. And as I recognize you in the order I have mentioned 
in the introduction, please in your own words tell your story, 
and then we will respond.
    Having said all of that, it appears to be, as we predicted, 
about 2:44. I do not know how prompt the White House will be. 
They were the other night, and broadcast at exactly 8, so we 
hope our technicians will obtain a picture of the President of 
the United States in just a few seconds.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I commend you for convening this hearing. Although we 
are now engaged in military conflict, we must remain focused on the 
threat of al-Qaeda, which remains a clear and still present danger. We 
know, through bitter experience, that American embassies are targets 
for the terrorists.
    There is no such thing as perfect security. But we must do 
everything possible to protect our people who are serving abroad.
    Four years ago, after assessing the tragic embassy bombings in East 
Africa, review boards chaired by retired Admiral William Crowe found 
that there was a ``collective failure of the U.S. government'' over the 
previous decade in failing to provide adequate resources to protect 
U.S. embassies.
    The report made several recommendations, some of which were similar 
to those made by an advisory panel chaired by Admiral Bobby Inman 
fourteen years before.
    Following the Crowe report, this committee responded by developing 
legislation, enacted in 1999, which authorized $4.5 billion for embassy 
security construction from fiscal 2000 through fiscal 2004. The 
legislation also codified several of the Crowe recommendations, 
including the requirement of 100-foot setback for all new embassies and 
that all new U.S. facilities be co-located on the embassy compound.
    Today, we must ask these questions: What is the current state of 
embassy security? What have we accomplished in the last four years? Are 
we implementing the Crowe recommendations and the law enacted in 1999?
    Do we need to revisit the standards adopted after the 1998 
bombings, given the changes in the threat of global terrorism? Is the 
funding in the President's budget sufficient?
    Secretary of State Powell, like Secretary Albright before him, is 
committed to providing protection for his people. Secretary Powell has 
hired a strong team in General Williams and General Taylor.
    Much has been done since the late 1990s. But much work remains. We 
still have significant vulnerabilities. The large majority of our 
facilities do not meet the minimum requirements for setback. Many posts 
do not meet standards for perimeter security.
    Our task is complicated by what we now clearly understand: the al-
Qaeda network has a global reach.
    Every diplomatic mission, therefore, must now be considered a 
target. There is no such thing as a ``low threat'' post. Furthermore, 
the recent attack on the AID employee, Mr. Foley, outside his home in 
Amman, Jordan, demonstrates that terrorists are beginning to look for 
``soft targets.''
    The Department has plans to construct over 160 new embassies over 
the next 12 years. To support these essential efforts, we need a 
significant infusion of resources.
    To its credit, the administration is proposing a sensible cost-
sharing plan--to extend capital construction costs to other government 
agencies. But the budget otherwise falls short of what is needed.
    The President's budget for embassy security provides $890 million 
to construct eight new facilities, which is clearly insufficient.
    At this pace, it will take twenty years, not twelve, to replace all 
the embassies identified by the Department. The Department's own long-
range plan contemplates roughly $1.6 billion for construction in fiscal 
year 2004; the President's budget is well below that amount.
    We cannot avoid this simple fact: security costs money. We must 
devote adequate resources to the task.
    I welcome our witnesses today. I know that the two retired generals 
before us who have continued their public service at the State 
Department are dedicated to protecting their colleagues. I hope this 
committee, and this Congress, will give them the tools that they need.

    The Chairman. Senator Sununu, do you have any opening 
comment or welcome to our guests today?
    Senator Sununu. Thank you, Mr. Chairman. Certainly I would 
like to say welcome to the general. I was pleased to be able to 
take some time taking a look at the terrific plans and level of 
success of some of the early work in the construction program 
when I was a member of the Budget Committee in the House. It is 
wonderful to see you again, and in some ways under unfortunate 
circumstances, but during a time that just emphasizes how 
important the security is all over the world for embassy 
personnel and their families. Good to see you again.
    Thank you, Mr. Chairman.
    The Chairman. Well, we may have been misinformed. Maybe the 
President is not going to speak at 2:45. Whenever he does speak 
we will obviously watch, but in the meanwhile, if you would 
proceed with your testimony, Mr. Ford, that would be great.

STATEMENT OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
  TRADE, U.S. GENERAL ACCOUNTING OFFICE [GAO], WASHINGTON, DC

    Mr. Ford. Thank you, Mr. Chairman. This is going to take 
about 15 minutes, so please, anytime you want me to stop----
    The Chairman. I understand. I apologize for these unusual 
circumstances.
    Mr. Ford. That's OK, perfectly fine.
    I am pleased to be here today to discuss our work on 
security and the overall conditions of U.S. diplomatic 
facilities around the world. U.S. personnel at our embassies 
and consulates are on the front lines, often serving in 
dangerous locations, and they must rely heavily on law 
enforcement and security measures of the foreign country in 
which they are located.
    As we think about the threats facing our military in the 
Middle East, as well as the terrorist threats here at home, we 
need to keep in mind that the U.S. Government employs thousands 
of people overseas at over 254 locations, and that they, too, 
face serious threats.
    Mr. Chairman, I plan to walk through some slides and some 
videos, some brief videos that we have assembled. Hopefully it 
will show up on the monitor back there. About 5 years ago, in 
1998, terrorist bombings of the two embassies in Kenya and 
Tanzania highlighted the compelling need for safe and secure 
overseas facilities. This slide \1\ shows the U.S. Embassy in 
Tanzania both before and after that bombing, and the picture on 
the right shows the extensive damage that a terrorist bomb can 
do to our facilities.
---------------------------------------------------------------------------
    \1\ Many of the slides and photos Mr. Ford discusses in his 
testimony are reproduced in his prepared statement which begins on page 
9.
---------------------------------------------------------------------------
    In November 1999, the Overseas Presence Advisory Panel said 
that thousands of Americans representing our Nation abroad 
faced an unacceptable level of risk from terrorist attacks. The 
panel concluded that many facilities were insecure, decrepit, 
deteriorating, and overcrowded, and it recommended a major 
capital improvement program to address these problems.
    Today, I will focus my comments on the security conditions 
at U.S. embassies and consulates, and on the State Department's 
efforts to enhance building security, which emphasizes the 
construction of new, secure replacement facilities. I will also 
comment on the management actions taken by the State 
Department's Bureau for Overseas Building Operations which is 
responsible for building the security upgrades and the new 
facilities.
    My comments on facilities security are based on analysis of 
State Department data and our recent visit to four overseas 
posts. For security reasons, I am not identifying these posts. 
My observations regarding State's facility construction program 
and its management are based on our ongoing work, which we 
initiated at your request and which we plan to report on later 
this year.
    Before I discuss the results of our work in detail, I want 
to explain some of the State Department's security standards 
and why they are so important. The Department has identified 5 
key security standards for overseas diplomatic facilities to 
protect them against terrorism and other dangers.
    The first standard the State Department believes is 
essential is that office facilities should be at least 100 feet 
from uncontrolled areas such as streets where vehicles can pass 
without first being checked by security officials. This setback 
is to protect buildings and occupants against bomb blasts, mob 
attacks, and other threats.
    Our first video clip from the State Department shows a test 
blast from 100 feet away. As you can see, the blast wave 
strikes the test structure with substantial force. However, the 
setback keeps the structure out of the blast fireball. A 
structure closer to that blast would not only be within the 
fireball, but would also receive substantial greater force from 
the blast.
    The second and third standards are strong perimeter walls 
and anti-ram barriers to keep vehicles from breaching the 
facility perimeter to get close to buildings before they can 
detonate a bomb. The next two videos show tests of anti-ram 
barriers and perimeter walls. The test truck is traveling at 50 
miles an hour. These walls and barriers are included in all new 
embassies under construction and, where feasible, have been 
included in State's upgraded security at existing facilities.
    The fourth standard requires blast-resistant construction 
techniques and materials. Coupled with the 100-foot setback, 
this standard provides the best possible protection against 
vehicle bomb attack, according to diplomatic security 
officials.
    The next video illustrates the importance of blast 
resistance. The video is taken from inside a test structure 
that is 100 feet away from an explosion of the same size shown 
earlier. Although the windows have been treated with mylar to 
prevent glass from shattering, the building is not blast 
resistant. As you can see, the blast force pushes the windows 
into the occupied space at a high rate of speed, and causes 
significant damage. Blast resistant buildings are designed to 
protect against this threat.
    The State Department's fifth security standard is 
controlled access at perimeter of a compound. At this 
controlled access point guards can screen personnel and 
vehicles before they enter the embassy compound to verify that 
they have no weapons before they can enter the compound.
    Mr. Chairman, the State Department has done much over the 
last 4 years to improve physical security at overseas posts. 
The State Department has constructed perimeter walls and anti-
ram barriers of the kind I just showed and access controls at 
many facilities. It has obtained host government approval to 
close off nearby streets at many locations, and it has 
implemented many other security measures. As of September 2002, 
the State Department had completed security upgrades at 113 
posts. It had installed mylar window film protection and 
enforced entry ballistic resistant doors at another 242 posts.
    At all four posts that we recently visited, we observed 
many of these recent upgrades. For example, the slide now being 
shown shows a new compound access control that was recently 
installed at one of the embassies we visited. This permits 
effective screening of people and vehicles before they enter 
the embassy.
    At three of the other posts, local authorities had 
permitted the closing of streets to public traffic in order to 
protect the facility. However, diplomatic security officials 
acknowledge it is not feasible to increase setback by closing 
off streets at many other locations. Furthermore, these 
officials have told us that upgrades are only partial fixes 
that did not bring the buildings up to their overall standards. 
In many cases, it is not possible to upgrade existing buildings 
to meet all of the standards, such as setback and blast 
resistance.
    Our analysis of the State Department's data shows that the 
primary office building at 232 posts did not meet one or more 
of the State Department's 5 key standards that I just 
mentioned. As a result, many thousands of employees may be at 
risk.
    This slide shows the number of primary facilities that meet 
the key standard. As shown on the far left, at 81 overseas 
posts the primary building meets none of the State Department's 
5 key standards. Only 12 posts overseas currently have 
buildings that meet all 5 standards.
    We have prepared a large display over to my right which 
shows this analysis in another way. What we have done is we 
have examined four of the standards. We have omitted the one on 
blast resistance for security reasons. This display shows the 
extent to which facilities meet each of the four other 
standards. Above the line are the number of buildings that meet 
the standard, and below the line, the red, are the number of 
buildings that do not meet each of those standards.
    The Chairman. Mr. Ford, what is the total number of 
buildings?
    Mr. Ford. The total universe of our analysis is 254 major 
buildings overseas. In the example, just to point out an 
example on the left, the 100-foot setback shows that only 11 
percent of the buildings----
    The Chairman. Out of 254.
    Mr. Ford. That is about 28 buildings.
    Our visits to the four posts last month provide numerous 
examples of the serious physical security deficiencies. The 
main building at each post does not meet setback standards and 
is virtually perched on the street. Here is an example of a 
U.S. embassy that does not have the 100-foot setback. It is 
located very close to a public street, and public traffic, 
including trucks and buses, routinely pass by.
    Annex buildings at the posts we visited had even more 
serious security problems. Three posts had annex buildings 
without any setbacks. Here is another example of one of those 
buildings. The picture shows the back of an embassy annex 
building. It has little or no setback on any of its four sides, 
and there is a public gas station on one side that could 
potentially exacerbate the bomb blast, the force of a bomb.
    Now that we have shown building vulnerabilities, I now want 
to comment on the State Department's plan to implement a 
multiyear, multibillion dollar construction program. I show on 
the next slide that Congress has appropriated substantial funds 
since 1998 embassy bombings to improve diplomatic facilities. 
From 1998 through 2003, approximately $3.5 billion has been 
appropriated.
    The slide also shows that the State Department has shifted 
its resources from implementing upgrades, as I mentioned 
earlier, to constructing new buildings and substantially 
retrofitting existing newly acquired or leased buildings. For 
example, in 1999, about half of the $692 million provided by 
Congress went for security upgrades and about half for 
construction projects. In 2003, the State Department plans to 
spend about 80 percent of its money on capital construction 
projects.
    In addition to completing construction in this way, State 
believes it needs to place facilities at about another 160 
posts. State's current long range plan, prepared in April 2002, 
calls for funding of 81 replacement facilities from fiscal year 
2002 through 2007. As shown in the next slide, the majority of 
these projects are planned for posts in Africa and Europe. For 
example, the State Department plans to replace 23 facilities in 
Europe by fiscal year 2007 at an estimated cost of about $2.3 
billion.
    The State Department has completed construction on six 
projects in Uganda, Qatar, Tunisia, Fiji, Kenya, and Tanzania. 
Over the next 4 years, State plans to complete another 34 
posts, including 11 in 2005 and 11 in 2006.
    At your request, Mr. Chairman, we are currently reviewing 
the State Department's capacity and performance in implementing 
this program. Two important questions that we plan to address 
are whether or not the construction of the embassies and 
consulates is proceeding on time and on budget, and whether the 
State Department and its contractors----
    [Interruption from television monitor.]
    The Chairman. Let's suspend here.
    [Recess.]
    The Chairman. I apologize for the delay.
    Mr. Ford. That is OK. That's fine.
    Although the State Department is in the early stages of its 
expanded construction program and our work is just underway, we 
do have several preliminary observations to make. First, the 
State Department has made a number of positive changes in its 
management of capital projects. It has developed a long range 
overseas building plan, an action that we had previously 
recommended.
    This plan represents a major improvement in the management 
of embassy construction because it provides decisionmakers with 
an overall sense of the projected project scope and funding 
needs, and it sets performance targets that can be compared 
with actual performance. In addition, senior State Department 
management has increased its oversight. For example, every 
month, General Williams holds a 2-day meeting to review every 
one of these projects.
    The State Department is also taking steps to accelerate the 
construction process, reduce construction costs and further 
enhance security of new buildings. For example, the State 
Department has developed a standard embassy design for use in 
many projects, and has moved toward a design-build method for 
contracting.
    The use of a standard design and design-build contracting 
has the potential to reduce project costs and timeframes. State 
has set a goal of a 2-year design and construction period for 
each of its embassies which, if met, could reduce the amount of 
time in design and construction by almost a year. State has 
also instituted an industry advisory panel to help ensure that 
it follows the best practices the private sector has to offer.
    In addition, the State Department and the Bureau of 
Diplomatic Security are seeking to incorporate new technologies 
into the construction program. We now have a video that shows 
the performance of a new window and building material 
technology. In contrast to technology we showed earlier, where 
the windows were blown into the work space, in this test the 
windows bounce outwards after being struck by the blast. This 
new technology shows a lot of promise in providing even greater 
protection for personnel in new buildings.
    State's time line for completing the replacement of all 160 
remaining posts will depend on the amount of money we receive 
for the construction program and how well the Overseas Building 
Operations Bureau and its contractors are able to perform. The 
President has requested $890 million in fiscal year 2004 to 
build embassies at eight posts. As shown at the next slide, 
assuming funding levels based at the fiscal year 2004 level, it 
would take about 20 years to fund the replacement program.
    This time line, which is represented in the red, could be 
shortened if the State Department receives more funds. 
According to the Office of Building Overseas projection, the 
program to replace the remaining 160 posts could be completed 
in about 12 years if it receives about $1.4 billion annually 
for capital projects.
    Because of the high cost and the importance of providing 
safe facilities as quickly as possible, we believe this program 
will warrant continued oversight.
    Mr. Chairman, that concludes my statement. I will be glad 
to answer any questions.
    [The prepared statement of Mr. Ford follows:]

Prepared Statement of Jess T. Ford, Director, International Affairs and 
          Trade, United States General Accounting Office [GAO]

                         WHY GAO DID THIS STUDY

    The 1998 terrorist bombings of the U.S. embassies in Kenya and 
Tanzania, which killed more than 220 people and injured 4,000, 
highlighted the compelling need for safe and secure overseas 
facilities. In November 1999, an independent advisory group, the 
Overseas Presence Advisory Panel, said that thousands of Americans 
representing our nation abroad faced an unacceptable level of risk from 
terrorist attacks and other threats. The panel called for accelerating 
the process of addressing security risks to provide overseas staff with 
the safest working environment, consistent with the nation's resources 
and the demands of their missions. Moreover, the panel concluded that 
many U.S. overseas facilities were insecure, decrepit, deteriorating, 
overcrowded, and ``shockingly shabby,'' and it recommended major 
capital improvements to redress these problems.
    GAO was asked to (1) assess the current conditions of overseas 
diplomatic facilities, including security, maintenance, office space, 
and information technology; and (2) provide some preliminary 
observations regarding State's efforts to improve facility conditions 
by replacing existing buildings with new, secure embassy compounds.

                            [March 20, 2003]

                           Overseas Presence

              CONDITIONS OF OVERSEAS DIPLOMATIC FACILITIES

What GAO Found
    The State Department has done much over the last 4 years to improve 
physical security at overseas posts. For example, State has constructed 
perimeter walls, anti-ram barriers, and access controls at many 
facilities. However, even with these improvements, most office 
facilities do not meet security standards. As of December 2002, the 
primary office building at 232 posts lacked desired security because it 
did not meet one or more of State's five key current security standards 
of (1) 100-foot setback between office facilities and uncontrolled 
areas; (2) perimeter walls and/or fencing; (3) anti-ram barriers; (4) 
blast-resistant construction techniques and materials; and (5) 
controlled access at the perimeter of the compound. Only 12 posts have 
a primary building that meets all 5 standards. As a result, thousands 
of U.S. government and foreign national employees may be vulnerable to 
terrorist attacks. Moreover, many of the primary office buildings at 
embassies and consulates are in poor condition. In fact, the primary 
office building at more than half of the posts does not meet certain 
fire/life safety standards. State estimates that there is a backlog of 
about $730 million in maintenance at overseas facilities; officials 
stated that maintenance costs would increase over time because of the 
age of many buildings. At least 96 posts have reported serious 
overcrowding.
    While State continues to fund some security upgrades at embassies 
and consulates, State is shifting its resources from these upgrades 
toward constructing new buildings and substantially retrofitting 
existing, newly acquired, or leased buildings. Funding for these 
capital projects has increased from $9.5 million in fiscal year 1998 to 
a requested $890 million in fiscal year 2004. In addition to completing 
ongoing construction projects, State believes it needs to replace 
facilities at about 160 posts at an estimated cost of $16 billion. At 
the proposed fiscal year 2004 rate of funding, it will take more than 
20 years to fully fund and build replacement facilities. While GAO has 
not fully analyzed State's performance in the early stages of this 
large-scale building program, GAO has observed that State has taken a 
number of positive steps to improve its program management. Because of 
the high costs and importance of this program, GAO believes the program 
merits extensive oversight.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Testimony of Jess T. Ford

    Mr. Chairman and Members of the Committee:
    I am pleased to be here to discuss our work on the security and 
overall conditions of U.S. embassy and consulate facilities around the 
world. The 1998 terrorist bombings of the U.S. embassies in Kenya and 
Tanzania, which killed more than 220 people and injured 4,000, 
highlighted the compelling need for safe and secure overseas 
facilities. Following the bombings, three high-level independent groups 
cited physical security problems at numerous overseas facilities. In 
November 1999, one of these groups, the Overseas Presence Advisory 
Panel,\1\ said that thousands of Americans representing our nation 
abroad faced an unacceptable level of risk from terrorist attacks and 
other threats. The panel called for accelerating the process of 
addressing security risks to provide overseas staff with the safest 
working environment, consistent with the nation's resources and the 
demands of their missions. Moreover, the panel concluded that many U.S. 
overseas facilities were insecure, decrepit, deteriorating, 
overcrowded, and ``shockingly shabby,'' and it recommended major 
capital improvements to redress these problems. You asked us to assess 
current facility conditions and what the State Department is doing to 
improve them.
---------------------------------------------------------------------------
    \1\ Secretary of State Albright established the Overseas Presence 
Advisory Panel following the 1998 embassy bombings in Africa to 
consider the organization and condition of U.S. embassies. Department 
of State, America's Overseas Presence in the 21st Century, The Report 
of the Overseas Presence Advisory Panel (Washington, D.C.: Nov. 1999).
---------------------------------------------------------------------------
    Today I will focus my comments on the security conditions at U.S. 
embassies and consulates. I will also discuss building maintenance, 
office space, and information technology conditions. Our observations 
are based on an analysis of data from the State Department's Bureaus of 
Diplomatic Security, Overseas Buildings Operations (OBO), and 
Information Resources Management, and our visits last month to four 
posts where we examined how facility conditions affect security risks 
and mission effectiveness. For security reasons, I will not be 
identifying these posts. Finally, I will discuss some preliminary 
observations regarding State's efforts to improve facility conditions 
by replacing existing buildings with new, secure embassy compounds. 
These observations are based on our ongoing review of State's 
multibillion-dollar embassy and consulate construction program on which 
we will report later this year.

                                SUMMARY

    The State Department has done much over the last 4 years to improve 
physical security at overseas posts. State has constructed perimeter 
walls, anti-ram barriers, and access controls at many facilities; has 
obtained host government approval to close off nearby streets at many 
locations; and has implemented other measures. However, even with these 
new improvements, most office facilities do not meet security 
standards. Our analysis showed that as of December 2002, the primary 
office building at 232 posts lacked sufficient security because it did 
not meet one or more of State's five key standards.\2\ These standards 
are a 100-foot setback between office facilities and public streets or 
other uncontrolled areas, the presence of perimeter walls and/or 
fencing, anti-ram barriers, blast-resistant construction techniques and 
materials, and controlled access at the perimeter to the compound. 
Moreover, at 81 posts, the primary building did not meet any of these 
standards. Only 12 posts have a primary building that meets all 5 
standards. As a result, thousands of U.S. government and foreign 
national employees may be at risk. Our visits to four posts last month 
provide numerous examples of serious physical security shortcomings. 
None of the primary office buildings at the four posts meets setback 
standards, and three posts have annex buildings without any setback. At 
one post, an annex building has little or no setback on four sides, and 
there is a public gas station on one side that could potentially 
exacerbate the blast force from a bomb. In addition, U.S. personnel at 
two posts occupy leased space in office buildings constructed with 
extensive glass walls, which post officials told us could shatter, 
seriously injuring or killing many occupants in the event of a large 
blast. Security officials at the posts we visited are concerned that 
many of the buildings we observed are vulnerable to terrorist attacks.
---------------------------------------------------------------------------
    \2\ At most posts, there are multiple buildings, often dispersed 
throughout the city. Our analysis focused on the primary office 
building at each post. At an embassy, the primary office building is 
called the chancery.
---------------------------------------------------------------------------
    Many of the primary office buildings at embassies and consulates 
are in poor condition. In fact, the primary office building at more 
than half of the posts does not meet certain fire/life safety 
standards. During one site visit, post officials described several 
buildings as fire traps--old wiring could cause fires, and there are 
limited fire exits. State estimated that there is a backlog of about 
$730 million in maintenance at overseas facilities, and officials 
stated that maintenance costs will increase over time because of the 
age of many buildings. Many embassy and consulate buildings are old, 
and at the four posts we visited, several buildings were constructed in 
the 1800s. We observed sinking foundations, crumbling facades, and 
serious cracks in the walls and around the windows. At one post, duct 
tape and plywood have been used in the ambassador's suite to seal 
around a window opening. At least 96 posts have reported serious 
overcrowding. At one post we visited, crowded office space was 
dramatic--for example, the Political Counselor, who is one of the most 
senior officials at the embassy, had an 8 by 13-foot cubicle, and 
another work area had a cramped 7-foot ceiling height.
    While State continues to fund some security upgrades at embassies 
and consulates, it is shifting its resources from implementing upgrades 
toward constructing new buildings and substantially retrofitting 
existing, newly acquired, or leased buildings. Funding for State's 
capital projects has increased from $9.5 million in fiscal year 1998 to 
a requested $890 million in fiscal year 2004. In addition to completing 
construction that is under way, State believes it needs to replace 
facilities at about 160 posts. This will be an expensive effort, 
costing an estimated $16 billion, and will require a sustained level of 
funding over many years. State's timeline for completing this program 
will depend on the amount of funding it receives and how well it 
manages the program. At the proposed fiscal year 2004 rate of funding, 
about $890 million for the construction of replacement facilities at 8 
posts, it will take more than 20 years to fully fund and complete 
construction.
    In the past, we have raised concerns regarding State's performance 
in managing its overseas real estate programs. While we have not fully 
analyzed State's performance in the early stages of this large-scale 
building program, we have observed that OBO has taken a number of 
positive steps to improve its program management. For example, it has 
developed a long-range plan to help guide decision making, has taken 
steps to reduce the amount of time for designing and constructing new 
embassies and consulates, and has installed an industry advisory panel 
to ensure that ``best practices'' are in place. Because of the high 
costs associated with this program and the importance of providing 
secure office space as quickly as possible, we believe this program 
merits extensive oversight.

                               BACKGROUND

    The United States maintains more than 250 diplomatic posts, 
including embassies, consulates, and other diplomatic offices, located 
around the world.\3\ More than 60,000 personnel--U.S. and foreign 
service nationals--work at these locations. About 50 government 
agencies and subagencies operate overseas, including the Departments of 
State, Defense, and Justice; and the U.S. Agency for International 
Development.
---------------------------------------------------------------------------
    \3\ The number of embassies, consulates, and other diplomatic posts 
changes as new posts are opened and posts are closed. In addition, 
State has a small presence in some other locations that are not 
included in these figures. For example, it has five 1-person posts in 
France, called American Presence posts.
---------------------------------------------------------------------------
    Since the 1970s, U.S. diplomatic personnel overseas have been 
increasingly at risk from terrorist attacks and other acts of violence. 
In response, the State Department in 1986 began a substantial embassy 
construction program, known as the Inman program, to protect U.S. 
personnel and facilities. In 1991, we reported that State was unable to 
complete as many projects as originally planned due to systemic 
weaknesses in program management, as well as subsequent funding 
limitations. This construction program suffered from delays and cost 
increases due to, among other things, poor program planning, 
difficulties in acquiring sites, changes in security requirements, and 
inadequate contractor performance.\4\ Following the demise of the Inman 
program in the early 1990s, the State Department initiated very few new 
construction projects until the Africa embassy bombings in August 1998 
prompted additional funding.
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office, State Department: Management 
Weaknesses in the Security Construction Program, GAO/NSIAD-92-2 
(Washington, D.C.: Nov. 1991).
---------------------------------------------------------------------------
    In the 1998 bombings, terrorists attacked the U.S. embassies in 
Nairobi, Kenya, and Dar es Salaam, Tanzania. These large-scale truck 
bombings killed more than 220 people, including 12 American U.S. 
government employees and family members, 32 Kenyan national U.S. 
government employees, and 8 Tanzanian national U.S. government 
employees. In addition, the bombings injured more than 4,000 Kenyans, 
Tanzanians, and Americans.\5\ Figures 1 and 2 show pictures of the 
embassy in Tanzania before and after the bombings.
---------------------------------------------------------------------------
    \5\ State Department, Report of the Accountability Review Boards: 
Bombings of the U.S. Embassies in Nairobi, Kenya, and Dares Salaam, 
Tanzania, on August 7, 1998 (Washington, D.C.: Jan. 1999).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Since these embassy bombings, U.S. facilities and personnel have 
faced continued threats from terrorist and other attacks. Embassy and 
consulate employees are on the front lines, often serving in dangerous 
locations, and must rely heavily on the protection provided by the law 
enforcement and security measures of the foreign country in which they 
are located. From 1998 through 2002, there were 30 terrorist attacks 
against overseas posts, personnel, and diplomatic residences. During 
that same period, overseas posts were forced to evacuate personnel or 
suspend operations 83 times in response to direct threats or unstable 
security situations in the host country. (See table 1.) During the 
first 2 months of 2003, overseas posts authorized the departures of 
personnel and/or their families a total of 11 times due to security 
concerns.

                     Table 1: Threats against U.S. Diplomatic Personnel and Posts, 1998-2002
----------------------------------------------------------------------------------------------------------------
                      Number and Type                         1998     1999     2000     2001     2002    Total
----------------------------------------------------------------------------------------------------------------
Terrorist attacks.........................................       10        9        2        2        7       30
Evacuations...............................................       22       12        7       18       19       78
  Authorized/voluntary....................................     [13]     [10]      [4]     [17]      [9]     [53]
  Ordered.................................................      [9]      [2]      [3]      [1]     [10]     [25]
Suspended operations......................................        4        1  .......  .......  .......        5

----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of State Department data. Security Standards.


Security Standards
    Before I discuss the results of our work, I want to explain some of 
State's security standards and why they are important.\6\ State 
identified five key security standards for overseas diplomatic office 
facilities to protect them against terrorism and other dangers. First, 
State believes that office facilities should be at least 100 feet from 
uncontrolled areas, such as a street where vehicles can pass without 
first being checked by security officials. Therefore, this distance 
helps to protect the buildings and occupants against bomb blasts, mob 
attacks, and other threats. In establishing the setback standard, the 
State Department determined that at 100 feet, the effects of a bomb 
blast have diminished to the point where the cost of site acquisition 
and construction to protect against the remaining blast effects are 
relatively affordable. State notes that additional setback may not be 
practical at many locations. Exhibit 1 is a video clip from the State 
Department showing a test blast from 100 feet away.
---------------------------------------------------------------------------
    \6\ These standards apply to the construction of new buildings. 
Existing buildings are required to meet the setback standard to the 
``maximum extent feasible.''
---------------------------------------------------------------------------
    The second and third standards are strong perimeter walls and anti-
ram barriers to ensure that vehicles cannot breach the facility 
perimeter to get close to the building prior to detonating a bomb. 
Exhibits 2 and 3 are video clips from the State Department showing the 
effectiveness of these walls and barriers.
    The fourth standard requires blast-resistant construction 
techniques and materials. Among other things, these materials include 
reinforced concrete and steel construction and blast-resistant windows. 
Diplomatic Security officials state that flying glass is a primary 
cause of injuries and deaths in a blast. Coupled with a 100-foot 
setback, blast-resistant construction provides the best possible 
protection against a vehicle bomb attack, according to Diplomatic 
Security officials. Combined, these four standards mitigate the effect 
of a vehicle bomb attack and prevent the building from suffering 
catastrophic collapse and complete destruction.
    State's fifth security standard is controlled access at the 
perimeter to the compound. At this control access point, guards can 
screen personnel and visitors before they enter the embassy compound to 
verify that they have no weapons and that they should be allowed to 
enter, and can fully search vehicles before they are permitted to enter 
the compound.

 STATE HAS DONE MUCH TO IMPROVE FACILITY SECURITY BUT MOST FACILITIES 
                  STILL DO NOT MEET SECURITY STANDARDS

    Over the last 4 years, State has accomplished much in improving 
posts' security through various security upgrades. These upgrades 
include the installation of Mylar shatter-resistant window film and 
forced entry/ballistic-resistant doors; the construction of perimeter 
security walls and fences, jersey barriers, and compound access 
controls; and the stationing of additional police and security guards. 
In June 2002, a bomb attack against the U.S. consulate in Karachi 
demonstrated the effectiveness of recent security upgrades to the 
compound. As shown in figure 3, physical damage to the building was 
minimized by these upgrades. As of September 30, 2002, State had 
completed security upgrades at 113 posts and had installed Mylar window 
film barriers and forced entry/ballistic-resistant doors at 242 posts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Further, to address security concerns at some of the buildings 
without a 100-foot setback, State has secured host government 
cooperation in either closing adjacent streets and/or posting local 
police officers as guards to monitor and control surrounding streets. 
State has also acquired adjacent land at 34 posts to increase setback 
since the 1998 embassy bombings. For example, State purchased a gas 
station next to an office annex building in Athens, Greece, and closed 
the gas station, thus increasing setback and improving security.
    At all four posts we visited, we observed that recent security 
upgrades have enhanced security. At three of these posts, local 
authorities have permitted closing off streets to public traffic in 
order to protect U.S. facilities. However, Diplomatic Security 
officials acknowledged that it is not feasible to increase setback by 
acquiring land and closing off nearby streets at many locations. 
Furthermore, these officials also told us that security upgrades were 
partial fixes that did not bring the buildings up to physical security 
standards. As a result, many buildings and their occupants remain 
vulnerable to terrorist attacks. Exhibit 4 is a video clip from the 
State Department that illustrates this vulnerability. It shows the 
effect of a blast 100 feet away on an office that does not meet the 
standard for blast-resistant construction. The windows have been 
treated with Mylar sheeting, a standard upgrade that mitigates the 
effects of glass shattering in a blast. Although Mylar provides some 
protection, the non-blast-resistant window construction may allow glass 
to be forced into the building at a high rate of speed.
    To assess the security of embassy and consulate facilities, we 
analyzed State Department data to determine if the primary facilities 
meet State's five key standards that I discussed earlier. Figure 4 
shows the portion of posts where the primary office building meets or 
does not meet four of the five security standards: setback, perimeter 
wall or fence, anti-ram barrier, and compound access control. At the 
request of Diplomatic Security officials, we will not discuss details 
on the remaining standard, blast-resistant construction, due to its 
sensitivity. We can say, however, that facilities completed since the 
late 1980s are considered to be blast resistant. Figure 5 shows the 
number of primary facilities that meet one, two, three, four, or five 
of the physical security standards.\7\ For example, it shows that the 
primary office facility at 81 posts met none of the five standards. Of 
these, 36 facilities are in locations that the State Department has 
designated as posing a high or critical threat level.
---------------------------------------------------------------------------
    \7\ Our analysis of facilities' security focused on the primary 
facility at 244 posts for which State provided security data.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Setback
    As shown in figure 4, only 28, or 11 percent, of the primary 
buildings meet the 100-foot setback standard. More than half of the 
primary buildings have less than 15 feet of setback--these buildings 
are virtually perched on the street. Figure 6 is an example of a post 
with limited setback.
    At the four posts we visited, all of the primary office buildings 
have limited setback from the street and several annex buildings have 
no setback. As shown in figure 7, one of these buildings is adjacent to 
a public gas station, which could exacerbate the effects of a bomb 
attack.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Another building, with little setback, is located next to a main 
thoroughfare. Consequently, public traffic, including trucks and buses, 
routinely travels within feet of U.S. government office space. At three 
of the four posts we visited, the embassy had secured host government 
cooperation in closing at least one street surrounding the primary 
office building; however, embassy officials at one location noted that 
these agreements were temporary and could be revoked at any time. 
Moreover, the embassies had not been able to close streets running next 
to all of their facilities, such as office annexes. For example, figure 
8 depicts the view from a senior official's office in an annex building 
where post officials were unable to close the main thoroughfare that 
runs directly in front of the building.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Perimeter Walls or Fences and Anti-ram Barriers
    Perimeter walls or fences and anti-ram barriers are two standards 
that work together to protect facilities. We found that 120 primary 
facilities lack an adequate perimeter wall/fence, while 147 lack 
adequate anti-ram barriers. Diplomatic Security officials explained 
that in many cases, posts are unable to install these upgrades due to 
host country limitations, such as their impact on traffic flow, 
parking, and the operation of adjoining residences and commercial 
buildings. Diplomatic Security officials stated that perimeter upgrades 
have been installed at all posts that are able to accommodate them.

Compound Access Control
    We also found that 108 posts either lack or have inadequate 
compound access control, a system of gates, barriers, and guard booths 
that is used to pre-screen personnel and vehicles before entering the 
embassy grounds. At one embassy we visited, visa applicants could gain 
access to the embassy building prior to undergoing proper screening, 
which would be a serious concern in the case of a terrorist action. 
Figure 9 depicts an inadequate compound access control booth, which is 
located within the embassy compound. The Security Officer acknowledged 
that this was a serious weakness and that visitors were not screened 
adequately before entering the embassy building. Construction of a new 
compound access control system is scheduled to begin in May 2003. 
Figure 10 depicts a newly upgraded compound access control system that 
facilitates full screening of all vehicles and persons prior to their 
gaining access to the compound.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ambassadors and security officers at three of the four posts we 
visited emphasized that in addition to facilities not meeting 
standards, there were security difficulties associated with the number 
of office facilities at their post that were spread out around the 
city. Three of the four posts we visited had more than five locations, 
and post managers were concerned that this made it extraordinarily 
difficult and expensive to implement security measures. Officials also 
stated that dispersion of facilities complicates emergency action 
planning. We note that frequent travel between dispersed facilities may 
also pose security risks to personnel because terrorists and criminals 
can target them while they are in transit. In the construction of new 
embassy compounds, all U.S. government offices are required to be 
located on the compound.

                    BUILDINGS ARE IN POOR CONDITION

    State Department data show that many buildings are in poor 
condition. At 133 posts, the primary office building has certain fire/
life safety deficiencies. At one post we visited, the fire escape for 
the 6th floor of the chancery was a chain-link ladder strapped to a 
heating radiator (fig. 11). OBO fire officials explained that a number 
of posts were unable to meet fire standards, such as sprinkler systems 
and proper number of exits, due to the structural limitations of the 
building. This underscores the Department's position that many 
buildings are in a condition that will not allow a security and safety 
upgrade.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Another safety problem is the seismic condition of buildings. 
Although the State Department does not have data on seismic conditions 
at all facilities, it acknowledges that embassy and consular employees 
at some locations may be working in buildings that do not protect 
against earthquakes. At one of the posts we visited, located in an 
earthquake region, the consular building has a very poor seismic 
rating. The State Department has been unable to locate a suitable 
temporary facility that can house the consular services while the 
landlord makes seismic improvements to the current building. The 
landlord has absolved himself from any responsibility in the event of 
earthquake damage.

Maintenance Is Serious Concern
    Maintenance is a serious concern because ``essential maintenance 
and repair requirements have long been unfunded,'' according to OBO 
documents. In May 2002, State estimated that its repair backlog to be 
about $736 million. For the primary office buildings alone, maintenance 
needs exceed $316 million, with the primary building at more than one-
third of all posts having more than $1 million in maintenance 
requirements. OBO projects that maintenance costs will increase over 
time because many of the facilities are so old and antiquated, some 
dating back to the late 19th and early 20th century. Our visits to four 
posts provided numerous examples of maintenance problems. All of the 
posts we visited had buildings with serious maintenance concerns that 
are common to old and deteriorating buildings, such as sinking 
foundations, crumbling walls, bursting pipes, and electrical overloads.

Office Space Is Crowded
    Although there are no specific criteria to measure the adequacy of 
office space, OBO has provided posts a questionnaire to help them 
evaluate space needs. Based on post inputs, OBO's Long-range Overseas 
Buildings Plan describes space conditions at posts where it plans a new 
facility or major rehabilitation. We counted 96 posts mentioned in the 
plan where OBO described the office space as being crowded or poorly 
configured. During our post visits, we verified that crowded and poorly 
configured office space is a problem. This was particularly true in the 
controlled access areas of the embassies where classified information 
is stored and processed. Because of the special requirements of these 
areas, it is generally not feasible to lease additional space as the 
embassies have done to expand office space for unclassified work. One 
post had severe overcrowding in its chancery. To cope, the post 
resorted to creating workspaces under a stairway and in storage areas. 
One office stacked a printer on top of shelving that can only be 
accessed with a stepladder in order to make room for another small 
workstation. This post used trailers located behind the chancery to 
augment office space. In addition, all of the posts expressed concern 
that the crowded conditions would get worse because they anticipate 
staff increases to handle additional responsibilities, such as 
performing more rigorous screening of visa applicants. Several 
ambassadors told us that the dispersion of office space in multiple 
buildings hindered operational efficiency. This is because personnel 
spend significant amounts of time going from one facility to another to 
conduct daily business.

Information Technology Issues
    I will now briefly discuss information technology capabilities at 
overseas posts, which, along with office facilities, are an important 
part of diplomatic readiness. State has long been plagued by poor 
information technology capabilities. In 1999, the Overseas Presence 
Advisory Panel reported that many posts are equipped with obsolete 
systems that prevent effective interagency information sharing.\8\
---------------------------------------------------------------------------
    \8\ America's Overseas Presence in the 21st Century: The Report of 
the Overseas Presence Advisory Panel.
---------------------------------------------------------------------------
    The Secretary of State has made a major commitment to modernizing 
information technology. According to State officials, the department 
invested $236 million in fiscal year 2002 on key modernization 
initiatives for overseas posts and plans to spend $262 million over 
fiscal years 2003 and 2004. State reports that its information 
technology is in the best shape it has ever been, and embassy personnel 
at the four posts we visited agreed, noting that they now have improved 
Internet access and upgraded computer equipment. State is now working 
to replace its antiquated cable system with the State Messaging and 
Archive Retrieval Toolset (SMART), a new integrated messaging and 
retrieval system.
    We have raised a number of concerns regarding State's management of 
information technology programs, and believe that State's information 
technology modernization efforts warrant management attention and 
oversight to ensure that State is following effective management 
practices. In 2001, we reported that State was not following proven 
system acquisition and investment practices in attempting to deploy a 
common overseas knowledge management system.\9\ State canceled this 
initiative because it could not get buy-in from other foreign affairs 
agencies. In 2001, we reported on State's information security 
problems, including weaknesses in access control that place information 
resources at risk of unauthorized access.\10\ As State continues to 
modernize information technology at overseas posts, it is important 
that it employs rigorous and disciplined management processes on each 
of its projects and that it addresses its information security 
weaknesses. This is particularly important on the SMART system, which 
State acknowledges is an ambitious effort. The Office of Management and 
Budget recently reduced funding for the system because of concerns that 
State was not employing effective management processes.
---------------------------------------------------------------------------
    \9\ U.S. General Accounting Office, Information Technology: State 
Department-Led Overseas Modernization Program Faces Management 
Challenges, GAO-02-41 (Washington, D.C.; Nov. 2001); and U.S. General 
Accounting Office, Foreign Affairs: Effort to Upgrade Information 
Technology Overseas Faces Formidable Challenges, GAO/T-AIMD/NSIAD-0O-2 
14 (Washington, D.C.; June 2000).
    \10\ U.S. General Accounting Office, Major Management Challenges 
and Program Risks: Department of State, GAO-O1-252 (Washington, D.C.: 
Jan. 2001).
---------------------------------------------------------------------------
REPLACING BUILDINGS IS STATE'S LONG-TERM SOLUTION TO PHYSICAL SECURITY 
                                PROBLEMS

    State continues to make security upgrades at some posts, but it is 
shifting its resources toward replacing existing facilities with new, 
secure embassy compounds or substantially retrofitting existing, newly 
acquired, or leased buildings. As shown in figure 12, funding for 
State's capital projects has increased from $9.5 million in fiscal year 
1998 to a requested $890 million in fiscal year 2004. State is still in 
the early phase of this multiyear, multibillion-dollar construction 
program. I will discuss this program briefly and then make several 
preliminary observations regarding State's management of this program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Summary of State's Regulations and Plans for Future Construction
    Following the 1998 east Africa bombings, State identified about 185 
posts needing replacement facilities in order to meet security 
standards. As of February 10, 2003, State had begun to replace 25 of 
these posts with new or retrofitted embassy and consulate compounds. 
From fiscal year 1999 through fiscal year 2003, State has received 
approximately $2.7 billion for its new construction program. OBO 
officials estimated that beginning in fiscal year 2004, it will cost an 
additional $16 billion to replace facilities at the remaining 160 
posts. OBO plans to construct these replacement facilities on embassy/
consulate compounds that will contain the main office building, all 
support buildings, and, where necessary, a building for the U.S. Agency 
for International Development.
    To help manage this large-scale construction program, OBO developed 
the Long-range Overseas Buildings Plan, first published in July 2001 
and most recently updated in April 2002. The latest version of the plan 
outlines and prioritizes proposed capital projects over 6 years, from 
fiscal year 2002 through fiscal year 2007, based on input from State's 
Bureau of Diplomatic Security, regional bureaus, and agencies with 
overseas presence.
    According to the April 2002 plan, State plans to fund the 
replacement of facilities at 81 posts at an estimated cost of $7.9 
billion from fiscal year 2002 through fiscal year 2007. As shown in 
figure 13, the majority of these projects are planned for Africa and 
Europe. OBO plans to release the next update of the Long-range Overseas 
Buildings Plan by the end of March 2003.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Of State's 25 post replacement projects funded after the 1998 
embassy bombings, State has completed the construction of 2 new embassy 
compounds and major retrofits of 2 newly acquired buildings that will 
serve as embassies.\11\ The remaining 21 projects are currently in the 
construction process. These consist of 18 new embassy and consulate 
compounds, 1 consulate compound renovation, and 2 newly acquired 
buildings undergoing major retrofitting for use as embassies (see fig. 
14). State plans to initiate another 7 post replacement projects in 
fiscal year 2003 and 8 post replacement projects in fiscal year 2004. 
These projects will be completed in fiscal years 2005 and 2006, 
respectively, if they adhere to State's planned 2-year construction 
schedule.
---------------------------------------------------------------------------
    \11\ Capital project figures exclude support buildings such as 
Marine Security Guard Quarters, U.S. Agency for International 
Development buildings, and General Services Operations buildings that 
were built independently of new embassy compounds.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Regarding the four posts we visited, a replacement facility is 
under construction at one post and fiscal year 2006 funding is 
scheduled for replacement facilities at two posts. The replacement 
facility for the fourth post is not currently scheduled; however, post 
officials told us that a replacement facility at their location would 
be included in OBO's March 2003 update of the Long-range Overseas 
Buildings Plan. Assuming that funding were made available to replace 
facilities for the three posts in fiscal year 2006, construction would 
not be completed until about 2009. Ambassadors at two of these posts 
expressed concern that it would be difficult to wait that long for a 
solution to their facility needs and that interim measures were needed.
State's Management of the Recently Expanded Construction Program
    We are currently reviewing State's capacity and performance in 
implementing its large-scale construction program. Two important 
questions for program oversight by this and other committees are: (1) 
Is the construction of embassies and consulates proceeding on time and 
on budget? (2) Do OBO and its contractors have the capacity to properly 
manage the program and ensure that funds are used wisely? State is in 
the early stages of its expanded construction program and, therefore, 
has not yet established a clear track record that would provide 
complete answers to these questions. However, we do have several 
observations based on our ongoing work.
    First, OBO has made a number of positive changes in its management 
of capital projects as the construction program has expanded over the 
past few years. As mentioned earlier, OBO developed the Long-range 
Overseas Buildings Plan in July 2001, an action we had previously 
recommended.\12\ This plan represents a major improvement in the 
management of embassy construction because it provides decision makers 
with an overall sense of proposed project scope and funding needs, and 
sets performance targets that can be compared with actual performance. 
Further, in February 2002, OBO leadership convened the Industry 
Advisory Panel. The panel consists of volunteer industry 
representatives who meet quarterly to discuss issues related to OBO's 
construction program and advise OBO management on industry's best 
practices. Moreover, senior OBO management has increased its oversight 
of ongoing capital and other projects. For example, each month, the OBO 
Director holds a 2-day Project Performance Review meeting to review the 
progress and problems of all ongoing OBO projects in detail. In 
addition, OBO is requiring contract administration training for all 
senior field staff who are to supervise new embassy and consulate 
construction.
---------------------------------------------------------------------------
    \12\ U.S. General Accounting Office, Embassy Construction: Better 
Long-term Planning Will Enhance Program Decision-making, GAO-01-11 
(Washington, D.C.: Jan. 2001).
---------------------------------------------------------------------------
    Second, State is taking steps to accelerate the construction 
process, reduce construction costs, and further enhance physical 
security conditions of new buildings. For example, OBO has developed a 
standard embassy design for use in most projects and has moved away 
from a ``design-bid-build'' method of contracting toward a ``design-
build'' method. Use of a standard design and design-build contracting 
has the potential to reduce project costs and the time taken to 
implement projects. Table 2 provides details of the three standard 
designs that OBO has developed for small, medium, and large posts. OBO 
has set a goal of a 2-year design and construction period for its 
standard embassy design buildings, which, if met, would reduce the 
amount of time spent in design and construction by almost a year.\13\
---------------------------------------------------------------------------
    \13\ Current new post construction projects have a contract 
schedule averaging 2 years and 11 months to complete. Only one project 
completed thus far--the new embassy compound in Kampala, Uganda--has 
used the standard embassy design.

  Table 2: Characteristics of Standard Embassy Designs for New Capital
                                Projects
------------------------------------------------------------------------
                                                        \1\ General
                                General size         construction cost
------------------------------------------------------------------------
Small new office building  46,285 gross square     $45 million
                            feet
Medium new office          79,653 gross square     $65 million
 building                   feet
Large new office building  121,632 gross square    $85 million
                            feet

------------------------------------------------------------------------
Source: Long-range Overseas Buildings Plan, April 2002.
\1\ This figure is in 2002 dollars and excludes value added tax and land
  costs.


    In addition, OBO and the Bureau of Diplomatic Security are actively 
seeking to incorporate advanced technologies into the construction 
program. Exhibit 5, a video clip from the State Department showing the 
performance of new windows and building materials, indicates that these 
technologies show promise of providing an even greater level of 
physical security for personnel operating in new buildings.
    While OBO has taken positive steps, we do have concerns regarding 
requirements for staffing levels at locations where OBO is planning to 
build a new embassy compound. We believe that improvements are needed 
in how the State Department and other agencies project staffing 
requirements for new embassies. In April 2003, we will report to the 
Chairman of the House Government Reform Committee's Subcommittee on 
National Security, Emerging Threats, and International Relations that 
staffing projections for new embassy compounds are developed without a 
systematic approach or comprehensive assessments of the number and 
types of staff who would be needed in the future. Without adhering to a 
systematic process for developing future staffing needs at U.S. 
embassies and consulates, the U.S. government risks building the wrong-
sized facilities, which could lead to security concerns, additional 
costs, and other work inefficiencies.

Funding and Timelines for Completing the Construction Program
    State's timeline for completing the replacement of all 160 
remaining posts will depend on the amount of funding it receives for 
the construction program. For fiscal year 2004, State's Long-range 
Overseas Buildings Plan called for almost $2 billion to fund the design 
and/or construction of 19 capital projects; in contrast, the 
President's proposed fiscal year 2004 budget requested $890 million for 
8 new diplomatic posts. As shown in figure 15, at the proposed fiscal 
year 2004 rate of replacement, it would take about 20 years to fund and 
22 years to complete construction of the estimated 160 remaining posts 
(assuming a 2-year design and construction period). Figure 15 also 
shows that this timeline would be shortened if State receives more 
funds annually. According to an OBO projection, the program to replace 
the remaining 160 posts could be completed in 12 years if OBO receives 
$1.4 billion annually for new capital projects.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In a January 2001 report,\14\ we identified potential industry 
bottlenecks and management issues that could affect State's ability to 
further expand and increase the pace of the construction program. These 
potential problems include the availability of appropriate sites for 
new buildings, particularly in major urban areas; appropriately cleared 
U.S. labor; construction materials; and unique security materials, such 
as glazing for windows and forced entry- and ballistic-resistant doors, 
Further, State and its contractors may require more management 
resources to implement and manage the program. In our continuing work 
for the committee, we will be considering these and other issues 
related to State's and its contractors' performance in building new 
embassies and consulates.
---------------------------------------------------------------------------
    \14\ GAO-01-11.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my prepared statement. I will be happy 
to answer any questions you or other members of the committee may ask.

    The Chairman. Thank you very much for that statement.
    General Williams.

STATEMENT OF MAJ. GEN. CHARLES E. WILLIAMS (RET.), DIRECTOR AND 
    CHIEF OPERATING OFFICER, OVERSEAS BUILDINGS OPERATIONS, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    General Williams. Thank you, Mr. Chairman and members of 
the committee, for this opportunity to discuss the Office of 
Overseas Building Operations, which has the mission to provide 
diplomatic and consular facilities for our government personnel 
overseas. I want to thank you, Mr. Chairman and the committee, 
for the support that has been provided to the State Department 
and specifically the area that I have commanded during this 
period of time.
    I am going to make a few short remarks, and then I am going 
to show you some slides which will depict what we have been 
about which I think can make the point.
    The mission of the Overseas Building Operations obviously 
was reshaped by the 1998 bombings of our embassies at Dar es 
Salaam in Tanzania and Nairobi, as you clearly have pointed 
out. This was reinforced, Mr. Chairman, by the events of 9/11, 
and all of this together has caused us to rethink about the 
whole notion of accelerating the construction of new facilities 
that can satisfy the Department's stringent security standards 
and provide our diplomatic personnel safe, secure, and 
functional office and residential environments.
    As you know, the Congress and the executive branch have 
identified the Overseas Building Operations in the Department 
as the State's single property manager for diplomatic, 
consular, and other related civilian support properties of the 
U.S. Government overseas. I want to take this occasion again to 
thank the committee and the Congress for their recent efforts 
to reinforce the Overseas Building Operations' role as the 
single real property manager, because I believe this is the 
right approach. The GAO recommended this management 
arrangement, and it was good to see the Congress support this 
as well.
    The combination of administrative reforms and planning, 
design and construction of new embassy compounds and the 
implementation of a cost-sharing program will go a long way 
toward implementing the recommendations of the Overseas 
Presence Advisory Panel and the GAO for long term planning and 
construction of new facilities, and operations and maintenance 
of existing facilities.
    I hope through this testimony that it will be clearly 
demonstrated that the efforts that we are making to bring 
rational and efficient management to the overseas building 
operation will be clearly shown. We take our new results based 
management approach very seriously, and we are committed to 
achieving the goals of ensuring that every government employee 
overseas has a secure, safe, and a functional facility in which 
to conduct our foreign policy.
    At this point, I would like to take you through a series of 
charts \2\ which will depict our program to date.
---------------------------------------------------------------------------
    \2\ The charts referred to are reproduced in General Williams' 
prepared statement which begins on page 31.
---------------------------------------------------------------------------
    Starting first of all with how it all started, I joined 
Secretary Powell during the transition, and it is from his 
vision that we started on this journey of totally revamping the 
way State would manage its properties overseas. The Secretary 
has given me total support, and it is a pleasure to have that 
in place in order to do this difficult job.
    Security, Mr. Chairman, is paramount. That is the bottom 
line, quite frankly. Starting in 1998 and to some degree in 
1999 after our activity in Europe, we have seen that our 
diplomatic facilities have been threatened. Studies and reports 
through the years have also pointed out that our buildings are 
unsafe, many are neglected and overcrowded, the image of our 
presence is negative in some locations, and records and reports 
have also pointed out that the funding has been too low. 
Construction targets, yes, have not been met throughout the 
years.
    What we have on our plate today. At the 260 locations, we 
have diplomatic missions. We have 22 new embassy compounds 
under construction today for about $1.5 billion. We have 9 new 
embassy compounds planned for construction in 2003 and we will 
be awarding them later this year. There are also many rehabs 
and other improvements.
    The capital security program, as has been pointed out by 
Mr. Ford, is pegged now at 160 new embassy and consulate 
compounds for a total estimate of about $16 billion. We think, 
with the plan we have in place, we can complete this work in 
about 12 years if we are able to have available about $1.4 
billion a year going forward.
    What guides all of this process is our newly created long 
range overseas building plan. This is a plan which offers us a 
``road map'' which shows all of the construction and 
rehabilitation, including the State Department and all of the 
tenants' staffing that would be associated with business 
overseas, Our own includes USAID, as well. This plan is updated 
annually. It covers a 6-year period, including the execution 
year.
    The new embassy compounds--I keep emphasizing compounds 
because we are not just building a diplomatic building, but 
rather we are building a compound, on a green, 10-acre site. 
Enclosed in this 10 acres is a 9-foot anti-climb wall which 
disallows any vehicular penetration, and then a series of 
facilities and structures inside of that compound.
    Some of the projects that we have completed are depicted 
next. Doha in Qatar, which is in a very, obviously, sensitive 
location as we speak. This embassy has been completed during 
the past 2 years. In Lima, Peru, the next slide shows a very 
large annex that was complete as well.
    Tunis in Tunisia, we just opened this new facility just 
before Christmas, and Dar es Salaam, which we are very proud 
of, 3 weeks ago we opened the new embassy in Tanzania. And Mr. 
Chairman, I would like to pause here to pick up a point that 
you made in your statement to us, and that is we should be very 
sensitive about not building bunkers, and I am happy to report 
to you that this facility picks up the local facade and the 
surroundings of Tanzania and Dar es Salaam, and the natives are 
very appreciative to that.
    This next building on the same campus, is a USAID building 
in Dar es Salaam, and just up the coast 200 or so kilometers is 
Nairobi, which opened 1 day after Dar es Salaam, and it was a 
wonderful ceremony with almost 1,000 people at each location.
    Moving to Europe and Zagreb, Croatia, we are about 6 weeks 
away from opening this new facility in Croatia. In Istanbul, 
Turkey, another very key location, this is a very large 
consulate. As you see once again the facade of these buildings 
picking up the local treatment and once again demonstrating 
that they are not bunkers.
    In the Emirates, in Abu Dhabi, this shows another new 
complex about 50 percent complete. In Abidjan, Cote d'Ivoire, 
also a similar arrangement. Sofia, Bulgaria, one of our younger 
countries, we are about 25 percent along the way with that 
facility. Sao Paulo, Brazil is another new location that we are 
completing a new consulate. In Yerevan, Armenia, also we have 
started work there as well, and Luanda, Angola, a very 
difficult place to work and a very small site, but we were able 
to launch that one as well. Abuja, Nigeria is the other 
location.
    And finally, Kabul, in Afghanistan. On 14 acres, the 
original embassy grounds, we are reconstructing the total 
embassy complex with our own new utility system so that we will 
never have the difficulty when, that we encountered in Kabul 
during this recent activity. On this compound we will have 
houses, we will have quarters for our marines, and it will be a 
fully secure compound. We are under construction there as well.
    This next slide, Mr. Chairman, shows our performance, 
because Mr. Ford had made reference to that. We were entrusted 
with $1.5, close to $1.7 billion last year. We obligated all of 
that. You can see how these funds were distributed around.
    A couple of points to make on this next slide are that the 
performance during this past year was about an 84 percent 
increase over any previous year, and it is important to point 
out that through this program we were able to generate savings. 
We generated some $63 million of savings through better costing 
tighter budget, shorter duration, so out of the funds that were 
provided we were able to generate enough funds to build another 
small embassy.
    In terms of workload, in March of 2001, OBO was managing 
about $.7 billion of work, and that has increased now to $3.5 
billion. In fiscal year 2002, the last previous year, we 
awarded 13 new compounds. They are listed on this chart. This 
year, in fiscal year 2003, we will be launching the 
construction on this list, which is 9 new compounds plus one 
left over, Dili, East Timor left over from last year.
    Beijing is in the mix for this year as well. This obviously 
will be the largest diplomatic facility that State has ever 
undertaken. This picture shows a rendering of how that will 
come out. We would expect to break ground there sometime in 
early fall.
    This next one shows the facilities that are planned for 
fiscal year 2004. As you can see, there are three USAID 
buildings as well that are programmed for fiscal year 2004.
    Berlin is also in the mix in fiscal year 2004. We are 
hoping to break ground, after many, many years of trying to 
reconstruct an embassy back at the same location where it all 
began, quite frankly. It has a lot of political significance, 
as you know, and this is where the Wall was located which 
divided that city.
    The Chairman. General, we have been discussing this for 
many, many years at the Department.
    General Williams. That is correct.
    The Chairman. Now, is this back 100 feet? [Indicating to 
slide.]
    General Williams. It is not back 100 feet at every side, 
Senator Lugar, but we have worked through all of the waivers in 
order to make it work for us. What is important is that we have 
worked out these arrangements with the neighbors to allow us to 
do certain activities in terms of checking vehicles and the 
like, and all of those agreements have been sorted out.
    The Chairman. We are still on the same plot near the 
Brandenburg Gate?
    General Williams. Same plot. That is correct, so now we 
have the ``rights of passage'' out of the way so we can move 
forward, and we are really pleased with that.
    The Chairman. Good. Yes.
    General Williams. This next chart shows some of the 
security compound upgrades. These are at the locations that are 
not new facilities. This happens to be in Djibouti, which is a 
very significant location.
    This next one shows another, what I call a, sort of a 
remote post out in Angola, and another one in South America. 
Our organization is operating from a results-based mentality, 
and with this we are responsible to have in place performance 
measures that work and at the same time an industry advisory 
panel that advises us.
    On this list, I will just illuminate a couple of these 
because some have been already mentioned. These are best 
practices. What we are most proud of is the industry advisory 
panel and an interagency facilities council, and obviously our 
relationship with the GAO and the inspector generals, we try to 
work in partnership to see the same issue and work toward a 
solution.
    This slide shows the industry advisory panel that we 
established 1\1/2\ years ago. It meets every quarter and 
advises me and my senior staff on industry best practices. 
There are nine members, who are very seasoned in their 
business, who come in on their own nickel and help us, and in 
fact they promote this program and our practices as much as we 
do.
    Our management responsibilities are as depicted here, but 
this next slide shows Kampala, Uganda, and the Secretary 
visited this area right after this new facility opened about 18 
months ago and asked me, why could we not use this concept and 
come up with a standard design. So we took this small embassy--
this happened to be just one wing of it--in Uganda and 
developed a standard design.
    What that means is that we now have on the shelf a small, 
medium, and large template for a very quick embassy 
construction, and this allows us now to move much faster and 
cut years off the schedule that we had once had in place. It is 
an excellent concept for getting after embassies in those small 
countries that are emerging.
    Next slide.
    This shows the performance and accountability. Mr. Ford 
made reference to that, the monthly reviews and the like, and 
finally moving to the new initiative, which is cost-sharing. 
Cost-sharing is an initiative that we feel will go hand in hand 
to everything else that we are trying to do here. This is where 
the tenants who occupy our platform will pay a pro rata share 
per capita, starting in 2004, and help us get these facilities 
done on an expedited scale.
    Finally, on the last slide I would just like to--I know 
this is very difficult to read, but this is the Director of the 
USAID building in Dar es Salaam. This was his quote about what 
he felt about the new facilities that we were trying to put in 
place.
    [The prepared statement of General Williams follows:]

 Prepared Statement of General Charles E. Williams, Director and Chief 
Operating Officer, Overseas Buildings Operations Bureau, Department of 
                                 State

    Thank you, Mr. Chairman and Members of the Committee, for this 
opportunity to discuss the efforts of the Department of State and the 
Overseas Buildings Operations Bureau (OBO) to provide secure diplomatic 
and consular facilities for U.S. Government personnel overseas.
    OBO's mission, reshaped by the 1998 bombings of the U.S. Embassies 
in Dar Es Salaam and Nairobi, and reinforced by the events of 9/11, is 
to accelerate the construction of new facilities that can satisfy the 
Department's stringent security standards and provide our diplomatic 
personnel safe, secure, and functional office and residential 
environments.
    As you know, Congress and the Executive Branch have identified OBO 
in the Department of State as the single property manager for 
diplomatic, consular, and other related civilian support properties of 
the United States Government overseas.\1\ I want to take this occasion 
to thank the Committee and the Congress for their recent efforts to 
reinforce OBO's role as the single real property manager, as 
recommended by the GAO, both in the Foreign Relations Authorization Act 
in the 107th Congress and in the Omnibus Appropriations Act in the 
108th Congress.\2\ Managing the U.S. Government's overseas properties 
is a delicate and complex set of responsibilities, involving properties 
with a value of approximately $12 billion, and the centralization of 
this function in the Department of State allows for professional, 
business-like management of these assets.
---------------------------------------------------------------------------
    \1\ GAO Report, entitled Current Law Limits the State Department's 
Authority to Manage Certain Overseas Properties Cost Effectively, July 
11, 2002, lays out the origins of this arrangement, from Congressional 
Report language, to OMB direction, to Department guidance documents. 
See page 2 of the Report.
    \2\ Section 213 of the Foreign Relations Authorization Act, 2003, 
Pub. L. 107-228, reversed section 738 of the USDA Appropriations Act, 
which conflicted with the Department of State's role as the single real 
property manager. GAO Report GAO-02-790R included in its 
recommendations, ``Congress may wish to consider repealing section 
738.'' Similarly, section 215 of the Omnibus Appropriations Act, Pub. 
L. 108-7, modified an earlier appropriations act (Section 220, Pub. L. 
106-554 App. A) that gave the Centers for Disease Control independent 
authority to lease real property overseas, restoring that authority to 
the Secretary of State.
---------------------------------------------------------------------------
    When I joined Secretary Powell's transition team in December of 
2000 to evaluate the Department's overseas facilities status and 
program, I reviewed the Inman Report, the Crowe Report, the Overseas 
Presence Advisory Panel (OPAP) Report, and various GAO reports on the 
challenges facing our government in providing secure, safe, functional 
facilities from which to conduct our foreign policy mission. The OPAP 
Report stated flatly that ``The condition of U.S. posts and missions 
abroad is unacceptable. . . . [I]nsecure and often decrepit facilities 
. . . threaten to cripple our nation's overseas capability.'' And GAO 
reported in January 2001 that ``The need to adequately protect 
employees and their families from threatened terrorist attacks overseas 
may very well be the single most important management issue facing the 
State Department.''
    Our Government currently employs almost 60,000 people, representing 
over 30 agencies at 260 overseas posts. The Diplomatic Security Bureau 
of the Department has concluded that at least 160 of those posts do not 
meet current security standards and should be replaced with new embassy 
compounds. Yet our Government was building new embassies at the rate of 
about one a year--a ``business as usual'' approach that could never 
catch up to the needs identified by OPAP and GAO. Inadequate funding 
was defended in part on the ground that the Department did not have the 
capacity to build more rapidly even if it were given the funds.
    Secretary Powell persuaded me to take on the task of reshaping the 
Department's overseas buildings operations so it could handle the task 
that needed to be done. With strong support and encouragement from 
Secretary Powell, I instituted significant organizational and 
management reforms in the structure and operations of what is now OBO. 
Over the last two years, we have already seen significant successes in 
cutting costs, putting in place standard designs and an integrated 
design review process, and reducing the construction period for new 
embassies through a ``fast track'' process. Congress has rewarded OBO 
with increased support and flexibility to carry out our mission, for 
which we are very thankful. In Fiscal Year 2002 we demonstrated the 
capacity to manage $1.8 billion. The capacity-building task is not 
completed, and I am determined to continue working to improve our 
operations.
    Let me briefly address the reforms I have instituted with respect 
to managing the process of constructing secure new diplomatic 
facilities and improving security at existing facilities, so the 
Committee can see why I believe OBO is now capable of handling the 
tasks that need to be done.

                           RESTRUCTURING OBO

    My first order of business as Director and Chief Operating Officer 
of OBO was to take advantage of its elevation to Bureau status as the 
occasion for a comprehensive reorganization. The new organizational 
structure reflects the life cycle of our properties: Planning and 
Development, Project Execution, Operations and Maintenance, and Real 
Estate and Property Management.
    Equally as fundamental as the new organization chart is a new 
organizational philosophy: every employee at OBO must be accountable, 
just as the organization as a whole must be held accountable for 
performance, and both senior management and staff must focus on 
results, not just business as usual.
    I have also put in place performance measures and a number of 
specific management tools that improve OBO's ability to accomplish its 
mission:

  <bullet> We set up a systematic process to gather the most accurate 
        information possible about long-term staffing plans not only of 
        the Department of State, but also of other agencies and 
        departments, including Treasury, Justice, and Defense, who 
        occupy many of the Department's facilities.

  <bullet> We prepared and published a Long-Range Overseas Buildings 
        Plan to establish construction priorities among posts, based on 
        a weighing of security risks and practical capability to 
        execute projects. The LROBP sets out in detail how the 
        Department will address its many competing facilities 
        requirements over the next six years, and it is the linchpin to 
        State's Overseas Buildings Operations. The first Plan, prepared 
        in July 2001 and released to Congress in April 2002, 
        encompasses 72 security capital projects estimated at more than 
        $6.2 billion, 9 other regular capital projects totaling $1.6 
        billion, 70 major rehabilitation projects estimated at $436 
        million, general maintenance and repair needs of over $500 
        million, and real estate acquisitions and disposals. The first 
        annual revision and update is in the process of being 
        finalized.

  <bullet> We established an Industry Advisory Panel to take advantage 
        of industry expertise.

  <bullet> We chartered an Interagency Facilities Committee, which met 
        for the first time in July, 2002 and will meet quarterly, to 
        provide a forum for all agencies that occupy Department 
        facilities overseas to discuss their needs and concerns.

  <bullet> We have adopted a holistic, business-case approach to 
        evaluating real property acquisition, lease-purchase, 
        management, and disposal decisions.

  <bullet> We use Standard Embassy Designs for the first time in the 
        Department's history, and modular construction where 
        appropriate, both of which can improve quality, reduce costs, 
        and shorten design and construction duration.

  <bullet> We conduct Integrated Design Reviews and interagency 
        coordination to ensure that our designs will meet applicable 
        health, safety, security, and functional standards and serve 
        the needs of all of the agencies that will be using the 
        facilities.

  <bullet> We have put in place the first completely secure system for 
        handling sensitive documents with designers and contractors.

  <bullet> I personally conduct monthly accountability and performance 
        reviews of every OBO Division and project.

    In pursuing these reforms, OBO has worked to develop a 
progressively closer relationship with the Bureau of Diplomatic 
Security. This effort extends across the board, from careful 
coordination of the security requirements in planning New Embassy 
Compounds, major rehabilitations, and perimeter and compound security 
projects, to integrated scheduling of post-construction security 
certifications that allow the Department to make use of completed 
structures without delay. I am pleased to say that Ambassador Taylor 
has continued the policy of active cooperation between our Bureaus that 
has made our projects move smoothly to successful conclusions. He and 
his staff have made concerted efforts to understand and accommodate the 
needs of the planners and construction managers in OBO, and I am happy 
to take this opportunity to thank them publicly for that vital 
cooperation. I am also pleased to report that OBO has developed an 
outstanding relationship and working arrangements with the intelligence 
community.
    These changes have produced results. OBO's increased capacity has 
gone hand-in-hand with a dramatic increase in funding requested by the 
Administration and appropriated by Congress. As a result, OBO is 
currently planning and executing new facilities on a larger scale than 
the Department has ever managed before. As of today, OBO has 22 New 
Embassy Compound (NEC) projects underway, involving $1.5 billion, and 
we intend to obligate funds for another 9 NEC projects involving $883 
million in Fiscal Year 2003.
    Over the course of 2003, OBO expects to break ground for New 
Embassy Compounds in Abuja, Nigeria; Beijing, China; Cape Town, South 
Africa; Conakry, Guinea; Dushanbe, Tajikistan; Kabul, Afghanistan; 
Phnom Penh, Cambodia; Tashkent, Uzbekistan; Thilisi, Georgia; and 
Yaounde, Cameroon.
    I am even more pleased to say that we will be cutting ribbons to 
open New Embassy/Consulate Compounds in Istanbul, Turkey, and Zagreb, 
Croatia. Earlier this month Under Secretary Grant Green and I had the 
pleasure of presiding over the dedication of our New Embassy Compounds 
in Nairobi, Kenya and Dar Es Salaam, Tanzania, replacing the embassies 
that were destroyed in 1998.
    I want to assure you that all of these new facilities are secure, 
safe, functional, and aesthetically appropriate to their surroundings. 
They will provide excellent diplomatic platforms for the execution of 
U.S. foreign policy for decades to come.
    In addition, we have 68 major rehabilitation projects underway and 
expect to initiate another 42 such projects with Fiscal Year 2003 
funds, for a total of $576 million in rehabilitation and security 
upgrade projects in process. OBO now has the capacity to manage $1.8 
billion in NEC projects on an annual basis.
    Over the last two years the Department has developed a major new 
initiative: a Capital Security Cost-Sharing Program that will 
dramatically accelerate our embassy construction program and encourage 
agencies to right-size their overseas presence. This Program implements 
the OPAP Report recommendation for a new financing mechanism for 
embassy construction and supports the President's Management Agenda 
item on rightsizing. The initiation of this Program was announced in 
the President's Budget for Fiscal Year 2004, with actual allocations to 
other agencies to commence in FY2005.
    As designed by the Department, the Capital Security Cost-Sharing 
Program will ensure that all agencies and departments share in the cost 
of new, secure diplomatic and consular facilities. When fully 
implemented, it will allocate funding on the basis of each agency's 
overseas presence in classified and unclassified space. We will seek a 
Program at the Washington level that will result in minimal 
administrative burden and controversy over agency shares. This 
structure for the program will reflect the advice we received from the 
Office of Management and Budget and from the Department's Industry 
Advisory Panel, which both thoroughly examined various structures and 
alternatives.
    In addition to funding the urgent needs for secure facilities, this 
capital costsharing arrangement will encourage each agency to right-
size its staffing, by reflecting more closely the true cost of 
stationing employees overseas. The overall effect on agency budgets 
could add about 10%-15% to what agencies now report as their total cost 
of stationing an American U.S. Government employee overseas.
    The combination of administrative reforms in the planning, design, 
and construction of new embassy compounds and the implementation the 
cost-sharing program will go a long way toward implementing 
recommendations of OPAP and GAO for long term planning and construction 
of new facilities and for proper operation and maintenance of existing 
facilities.
    I hope this testimony demonstrates the efforts we are making to 
bring rational and efficient management to OBO and the Department of 
State. We take our new results-based management philosophy very 
seriously, and we are committed to achieving the goal of ensuring that 
every U. S. Government employee overseas has secure, safe, and 
functional facilities in which to conduct the foreign policy of the 
United States.
    Thank you for your interest and attention. I will be happy to 
address any questions you may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Thank you very much, General Williams.
    Ambassador Taylor.

  STATEMENT OF HON. FRANCIS X. TAYLOR, ASSISTANT SECRETARY OF 
STATE FOR DIPLOMATIC SECURITY, DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Taylor. Thank you, Mr. Chairman, members of the 
committee. I am honored to have the opportunity to appear 
before you today to talk about security of our embassies and 
consulates abroad.
    Congress has indeed played a major role in assisting our 
Department in improving our ability to provide secure 
facilities and the security of our embassies abroad. As a 
result of the 1998 embassy bombings in Nairobi and Dar es 
Salaam, Congress passed new legislation now referred to as the 
Secure Embassy Counterterrorism and Construction Act, mandating 
the standards set forth in Mr. Ford's presentation. The 
Department has faithfully complied with the certification 
requirements outlined in that legislation, and I can state 
unequivocally that this has resulted in construction of safer, 
more secure facilities for our diplomats overseas.
    Congress also provided generous and most necessary funding 
in the form of an emergency security appropriation in the 
aftermath of the 1998 embassy bombings. This funding allowed us 
to install shatter-resistant window film, duck and cover alert 
systems, and closed circuit TV recording systems worldwide. We 
upgraded our technical security systems' power and wiring which 
allowed us to improve our perimeter security at our most 
threatened posts, with better walls, public access control, 
screening booths, and additional anti-ram protection. And it 
provided us the means to purchase explosive detectors and x-ray 
equipment for virtually every post in the world.
    Improvements made to the U.S. Consulate in Karachi, as Mr. 
Ford mentioned, with this funding, undoubtedly saved many lives 
when a suicide car bomber struck in June 2002.
    Mr. Chairman, I am not here on this occasion to provide a 
discourse solely on the actions we have taken jointly in the 
past. You have asked the GAO and Mr. Ford to report on the 
state of our facilities. I think their presentation has fairly 
and accurately stated the depth of our requirements in order to 
meet the Department's diplomatic goals in a relatively safe and 
secure environment.
    You have also heard from my colleague, General Williams, on 
his restructuring of the Bureau of Overseas Building Operations 
to meet these requirements. He has outlined his goals, 
execution strategies, and budget requests. I think the success 
of his efforts are quite self-evident. His efforts, and more 
importantly his results, have built a new level of credibility 
with Congress and convinced skeptics that the Department can 
adapt to new methods of management and utilize some of the best 
practices from industry. I support his efforts, and my offices 
within Diplomatic Security will continue to work very closely 
with OBO to ensure that his efforts continue in a safe and 
secure manner.
    The Bureau of Diplomatic Security [DS] is not standing 
still, either. A highly focused development effort in our 
Physical Security Office has successfully delivered new 
products and methods that will allow OBO to better mitigate our 
vulnerabilities. The Department of State's proprietary 
standards for forced entry and bullet-resistant doors and 
windows, once the only standards in industry and government 
concerned with this type of security, have been supplemented by 
the adoption of industry standards promulgated by Underwriters 
Laboratory and the American Society of Testing and 
Manufacturing.
    We have developed and commercialized a totally new, 
lightweight, laminated glass window that will lower cost and 
simplify installation. This material is now commercially 
available. We have pioneered new developments in anti-ram 
vehicle protection and provided new products more acceptable to 
foreign governments and architects. We have done this in 
partnership with other government agencies to leverage our work 
and provide better answers across our spectrum of needs.
    DS special agents serving in regional security offices 
anchor our overseas security efforts and provide a first line 
of defense for U.S. diplomatic personnel, their families, U.S. 
diplomatic missions, and national security information. We have 
more than 420 DS security officers in 157 countries advising 
chiefs of mission on security matters and developing and 
implementing the programs that shield each U.S. mission and 
residence from physical and technical attack.
    A little known fact is that the DS also provides security 
professionals at OBO construction projects overseas for the 
entire duration of construction. These individuals, known as 
site security managers, are DS special agents there to ensure 
that the project security requirements are foremost in the 
important and complex efforts of constructing new facilities. 
Our level of cooperation with OBO has never been as close as it 
has been today. The Department's need for safe and modern 
facilities has never been more apparent. DS and OBO goals have 
never been as clearly aligned. We need your continued support 
to build upon the fine efforts that the Department has made in 
the last 3 years to construct more new embassies and 
consulates. If General Williams says he can produce even more 
on an annual basis, then DS will be there supporting his 
efforts.
    While I have only been the Assistant Secretary since 
November, Mr. Chairman, I think you know I spent 31 years in 
our Air Force investigations and counterintelligence and more 
recently as the Coordinator for Counterterrorism, and therefore 
I have had an opportunity to watch DS in action, and I could 
not be more proud to have been asked by the President and 
Secretary to lead this fine organization of talented 
professionals in performing this very complex mission overseas.
    In addition to supporting our overseas construction 
program, we have a multifaceted partnership with domestic and 
foreign law enforcement agencies. These relationships ensure 
better security abroad for Americans and foreign national 
employees of the Department of State, and help to secure our 
national borders here at home. They have been built over time 
to provide a layered and secure environment for the conduct of 
diplomacy and the promotion of America's interests worldwide, 
as well as helping us to increase security awareness among all 
Americans living and working abroad. I would like to just 
highlight several of those initiatives that we are involved in.
    In calendar year 2002, our agents investigated nearly 5,000 
passport and visa fraud cases and made more than 400 arrests. 
These felonies are often committed in conjunction with more 
serious crimes by individuals looking to change their 
identities and conceal their activities and movements. DS has 
investigated passport and visa fraud cases that have been 
connected not only to terrorism, but also to drug trafficking, 
international organized crime, money laundering, pedophilia, 
and murder. Our investigation helps secure U.S. borders and 
protects the national security of the United States.
    Domestically, DS is actively involved in the homeland 
security effort. DS's 8 field offices and 15 resident offices 
coordinate with our Consular Affairs passport agencies to 
vigorously investigate passport fraud. Our visa fraud branch is 
working collaboratively with the Department of State Office of 
the Inspector General: Office of Investigations to examine all 
allegations of consular malfeasance and employee corruption, 
and I am proud to report to you, Mr. Chairman, that the 
difficulties in coordination that once existed between the OIG 
and DS with regard to sharing investigative information no 
longer exists. We have an excellent agreement on the exchange 
of information, and there is more fraud than all of us can do 
together, so we do not have to fight over who gets what.
    We have DS agents represented in 19 of the FBI's 56 Joint 
Terrorism Task Forces to coordinate the passport and visa 
aspects of those investigations and, indeed, most terrorism 
investigations do go overseas and come back to the States. 
Those relationships that we have with the FBI and our other 
partners are particularly useful in bringing those culprits to 
justice.
    In addition, DS conducts protective intelligence 
investigations into threats made against the Secretary of 
State, our employees, and foreign dignitaries under our 
protection, and foreign missions that are assigned here in the 
United States. Since the East Africa bombing, DS has 
investigated thousands of these threats directed at our 
missions and personnel around the world.
    We protect more dignitaries than any other agency in the 
U.S. Government. Our special agents guard, as I said, the 
Secretary of State 24 hours a day, and go everywhere that he 
goes. We also protect the U.S. Ambassador to the United 
Nations, and foreign dignitaries who visit the United States, 
approximately 150 visitors in the last year.
    Among those dignitaries who have received DS protection are 
Foreign Ministers, foreign heads of state, members of the 
British Royal Family, and representatives of Middle East peace 
delegations, and the Secretary General of NATO, to mention a 
few. DS coordinates its protection with State and local police 
and with other Federal law enforcement agencies in the cities 
to be visited.
    The DS Office of Foreign Missions also assists foreign 
embassies and their consulates in the United States with 
security for their missions and personnel, and the convergence 
of security information with the foreign missions' role of 
managing or assisting foreign missions here has never been 
closer. Particularly as threats have arisen in our own country, 
foreign missions have looked to us and OFM for assistance in 
threat data and in protecting their facilities.
    Mr. Chairman, as you mentioned, I have the remainder of my 
statement, but in the interests of time I will stop there and 
look forward to your questions and those of the committee.
    [The prepared statement of Ambassador Taylor follows:]

Prepared Statement of Ambassador Francis X. Taylor, Assistant Secretary 
 of State for Diplomatic Security and the Office of Foreign Missions, 
                          Department of State

    Mr. Chairman, Senator Biden, and distinguished members of the 
committee--I am honored to appear before you today with my esteemed 
colleague to speak on the issue of security of our Embassies and 
Consulates abroad, and our efforts with both domestic and foreign law 
enforcement agencies to ensure the security of Americans abroad and to 
protect our borders. As Assistant Secretary for Diplomatic Security, I 
am acutely aware of, and in many ways responsible for, countering the 
serious threats to Americans and American facilities operating 
overseas.
    Congress has played an important role in the evolution of how the 
Department of State protects our operations overseas. As a result of 
attacks against our facilities in the 1980s and the problems associated 
with the first effort at building the new embassy in Moscow, the 
Foreign Relations Authorization Act of 1989 and 1990 included a 
requirement that the Secretary certify to Congress that adequate and 
appropriate steps are taken to ensure that the Department builds safe 
and secure facilities.
    As a result of the 1998 embassy bombings in Nairobi and Dar-Es-
Salam, Congress passed new legislation, now referred to as the ``Secure 
Embassy Counterterrorism and Construction Act'', mandating 100 feet of 
setback and collocation of all Foreign Affairs agencies in newly 
constructed facilities overseas, unless a specific waiver was granted 
by the Secretary or myself.
    The Department has faithfully complied with the certification 
requirement, and I can state unequivocally that this has resulted in 
the construction of safer more secure facilities overseas.

                            SAFER EMBASSIES

    Congress also provided generous, and most necessary, funding in the 
form of an emergency security appropriation in the aftermath of the 
1998 embassy bombings. This funding allowed us to install shatter 
resistant window film; duck and cover alert systems; and CCTV recording 
systems worldwide. We upgraded our technical security systems, power, 
and wiring. It allowed us to improve our perimeter security at our most 
threatened posts with better walls, public access control screening 
booths, and additional anti-ram protection. And it provided us the 
means to purchase explosive detectors and X-Ray equipment for virtually 
every post in the world. Improvements made to the U.S. Consulate in 
Karachi with this funding undoubtedly saved many lives when a suicide 
car bomber struck in 2002.
    However, I am not here this on this occasion to provide a discourse 
solely on actions we have jointly taken in the past. You have asked GAO 
to report on the state of diplomatic facility conditions. I think their 
presentation has fairly and accurately stated the depth of our 
requirements in order to meet the Department's diplomatic goals in a 
relatively safe and secure environment.
    You have heard from General Williams, on his restructuring of the 
Bureau of Overseas Buildings Operations to meet these requirements. He 
has outlined his goals, execution strategies, and budget requests. I 
think the success of his efforts is self-evident. His efforts, and more 
importantly his results, have built a new level of credibility with 
Congress, and convinced skeptics that the Department can adapt to new 
methods of management and utilize some of the best practices from 
industry. I support his efforts, and my offices within Diplomatic 
Security will continue to work closely with OBO.
    The Bureau of Diplomatic Security is not standing still either. A 
highly focused development effort in our physical security office has 
successfully delivered new products and methods that will allow OBO to 
better mitigate our vulnerabilities. Department of State proprietary 
standards for forced entry and bullet resistant doors and windows, once 
the only standards in industry or government concerned with this type 
of security, have been supplemented by adoption of industry standards 
promulgated by Underwriters Laboratories and the American Society of 
Testing and Manufacturing. We have developed and commercialized a 
totally new lightweight laminated glass blast window that will lower 
costs and simplify installations. This material is now commercially 
available. We have pioneered new developments in anti-ram vehicle 
protection and provided new products more acceptable to foreign 
governments and architects. We have done this in partnership with other 
U.S. government agencies to leverage our work and provide better 
answers across our spectrum of needs.
    DS Special Agents serving in Regional Security Offices anchor our 
overseas security efforts and provide a first line of defense for U.S. 
Diplomatic personnel, their families, U.S. Diplomatic Missions, and 
national security information. More than 420 DS security officers in 
157 countries advise chiefs of missions on security matters, and 
develop and implement the programs that shield each U.S. Mission and 
residence from physical and technical attack. A little known fact is 
that DS also provides security professionals at OBO construction 
projects overseas for the entire duration of the construction. Known as 
Site Security Managers, these DS agents ensure that project security 
requirements are foremost in these important and complex efforts.
    Our level of cooperation with OBO has never been as close as it is 
today. The Department's need for safe and modern facilities has never 
been more apparent. DS and OBO goals have never been as clearly 
aligned. We need your continued support to build upon the fine efforts 
the Department has made in the last three years to construct more new 
embassies and consulates. If General Williams says he can produce even 
more on an annual basis, then DS will be there supporting his effort.
    While I have only been the Assistant Secretary for Diplomatic 
Security since November, I was the Department's Coordinator for 
Counterterrorism. Before that, I spent 31 years in the Air Force Office 
of Special Investigations, serving as its Commander from July 1996 
until my retirement in July in 2001. In all of these positions, I have 
had the privilege to work with the men and women of the Bureau of 
Diplomatic Security and the Office of Foreign Missions. I am awed by 
the scope of their missions and the dedication and professionalism they 
demonstrate daily in protecting Americans and American interests 
worldwide. I was particularly proud, when recently, the Federal Law 
Enforce Officers Association (FLEOA) recognized 12 of our people with 
the association's highest honor for courage demonstrated in rescues 
last March as they evacuated 15 Americans stranded in Ramallah 
``working literally meters away from Israeli-Palestinian firefights'', 
and again last April when our agents rescued 18 Americans, including 
six children, along with nationals from Britain, Japan and Italy who 
had been trapped by fighting in Bethlehem.
    In addition to supporting the overseas construction program we have 
a multi-faceted partnership with both domestic and foreign law 
enforcement agencies. These relationships ensure better security aboard 
for Americans and foreign national employees of the Department of 
State, and help to secure our national borders here at home. They have 
been built over time to provide a layered and secure environment for 
the conduct of American diplomacy and the promotion of American 
interests worldwide, as well as helping us increase security awareness 
among all Americans living, working and traveling abroad.

                             INVESTIGATIONS

    In the area of investigations, during the 2002 calendar year, DS 
Special Agents investigated nearly 5000 passport and visa fraud cases 
and made over 400 arrests. These felonies are often committed in 
conjunction with more serious crimes by individuals looking to change 
their identities and conceal their activities and movements. DS has 
investigated passport and visa fraud cases that have been connected not 
only to terrorism, but also to drug trafficking, international 
organized crime, money laundering, pedophilia and murder. Our 
investigations help secure U.S. borders and protect the national 
security of the United States.

                          SECURING OUR BORDERS

    Domestically, DS is also actively involved in the border security 
effort. DS' eight Field Offices and fifteen Resident Offices coordinate 
with Consular Affairs Passport Agencies to vigorously investigate 
passport fraud cases. The DS Visa Fraud Branch is working 
collaboratively with the Department of State OIG Office of 
Investigations to examine all allegations of consular malfeasance and 
employee corruption that may compromise the integrity of the visa 
process. DS is represented on 19 Joint Terrorism Task Forces (JTTF) 
around the country, and works closely with the FBI and other federal 
law enforcement agencies to investigate any passport or visa fraud 
investigations with a possible terrorism nexus. DS, in partnerships 
with the Bureau of Consular Affairs and State OIG, plays an important 
role in helping to secure our nation's borders. It is because of this 
partnership that we will succeed.

                        PROTECTIVE INTELLIGENCE

    In addition, DS conducts protective intelligence investigations 
into threats made against the Secretary of State, other Department 
employees, facilities here and abroad, foreign dignitaries under our 
protection, and foreign missions in the United States. Since the East 
Africa bombings, DS has investigated thousands of threats directed at 
our missions and personnel around the world.

                          REWARDS FOR JUSTICE

    DS also administers the interagency Rewards for Justice Program, 
which allows the Secretary of State to offer rewards for information 
that prevents or resolves acts of international terrorism against U.S. 
interests worldwide. There is no doubt that information received under 
this program has put terrorist behind bars, saved thousands of lives, 
and is a key component of the U.S. Governments fight against 
international terrorism.

                         PROTECTIVE OPERATIONS

    Diplomatic Security protects more dignitaries than any other agency 
in the U.S. Government. DS Special Agents guard the Secretary of State 
24 hours a day, seven days a week, everywhere he goes in the world. DS 
also protects the U.S. Ambassador to the United Nations, and foreign 
dignitaries who visit the United States (approximately 150 each year). 
Among those foreign dignitaries who have received DS protection are 
foreign ministers, former heads of state, members of the British royal 
family, representatives of the Middle East Peace Delegations, the 
Secretary General of NATO, Palestinian Authority Chairman Yassar 
Arafat, and the Dali Lama. DS coordinates this protection with state 
and local police and with other federal law enforcement agencies in the 
cities to be visited. The DS's Office of Foreign Missions also assists 
foreign Embassies and their Consulates in the United States with the 
security for their missions and personnel. I would like to thank the 
committee for the increased agent authorities provided last year that 
will assist us in the conduct of this mission.

                           CRISIS MANAGEMENT

    DS Special Agents serving in regional security offices anchor our 
overseas security efforts and provide the first line of defense for 
U.S. diplomatic personnel, their families, U.S. diplomatic missions, 
and national security information. DS Special Agents, in concert with 
other mission or post elements, formulate a number of subject specific 
action plans to deal with various emergency contingencies ranging from 
hostage taking to evacuations. Often in times of crisis and political 
instability, DS Special Agents rely on the U.S. military for 
assistance. Since the early 1990s, DS agents have worked closely with 
the military, especially the U.S. Marine Fleet Anti-terrorism Security 
Teams, which have provided emergency force protection support for 
Department of State operations in a number of countries throughout the 
world when the host government was unable to do so.

                         INTERNATIONAL LIAISON

    In addition, special agents are the primary liaison with foreign 
police and security services overseas in an effort to obtain support 
for U.S. law enforcement initiatives and investigations. Much of the 
investigative and law enforcement liaison work done by special agents 
abroad is on behalf of other Federal, State and local agencies. The 
Bureau receives more than 5,000 requests for overseas investigative 
assistance from U.S. law enforcement each year, and has achieved 
noteworthy success in locating and apprehending wanted fugitives who 
have fled the United States.

                   ANTI-TERRORISM ASSISTANCE PROGRAM

    The war against international terrorism is one that the United 
States cannot wage alone. Through the Anti-Terrorism Assistance 
Program, DS arranges for training in the United States for civilian 
security personnel from allied governments in police procedures focused 
on terrorism. Since the program's inception in 1983, more than 31,000 
foreign students from 127 countries have received training in bomb 
detection, crime scene investigations, airport and building security, 
maritime security, and dignitary protection. These officials return to 
their countries better prepared to fight terrorism and protect 
Americans overseas in times of crisis. DS has received numerous stories 
from foreign police officers who have utilized their ATA training 
successfully to counter terrorist situations in their countries.
    The economic and national prosperity of the United States depends 
on a strong and vigorous private sector that is able to conduct 
business safely and securely throughout the world.

                   OVERSEAS SECURITY ADVISORY COUNCIL

    In addition to protecting our people, information, and property, 
DS, through the Overseas Security Advisory Council (OSAC), works with 
the U.S. private sector on security issues abroad. The Council, one of 
the preeminent public-private partnerships in the United States today, 
was established in 1985 and is co-chaired by DS. It consists of 
representatives from the U.S. government and the U.S. business 
community on overseas security issues of mutual concern. Since its 
inception, over 2,300 U.S. companies have repeatedly sought assistance 
from the Council.
    The Council operates an electronic database that can be accessed 
via the Internet by OSAC's constituency. This database contains a 
directory of all Foreign Services posts by country, including regional 
security officers, police organizations, State Department travel 
advisories, security and crime situations, terrorism profiles, 
significant anniversary dates, and messages highlighting information of 
interest to American business travelers. DS Special Agents also provide 
unclassified security briefings and other professional advice to U.S. 
businesses overseas.
    Diplomatic Security and the Bureau of Consular Affairs are at the 
forefront of our nation's efforts to adequately secure our borders from 
possible terrorist threats. Those efforts begin at the consular 
interview window in each of our Embassies and Consulates around the 
world. DS is deploying additional agents overseas to expand our 
investigative efforts to identify fraudulent applicants and other 
individuals who attempt to compromise the integrity of our passport and 
visa process. DS agents and Consular Officers working at our embassies 
and consulates continue to work closely with numerous host government 
law enforcement authorities to identify, arrest, and prosecute these 
individuals before they reach our shores.
    I would like to thank the Committee for its continuing interest and 
support of the Diplomatic Security Service and the Office of Foreign 
Missions and would welcome any questions you might have.

    The Chairman. Thank you very much. I will ask a few 
questions, I will then recognize Senator Sarbanes, and then we 
will alternate as long as we are here. We appreciate the 
thoroughness and the detail of your testimony and the visuals.
    Let me just ask a general question. Has the danger level 
that we are now talking about today--in addition to discussing 
your efforts to combat it--always been a problem for American 
diplomacy? Historically, is this a new phenomenon, so I am 
interested in whether anybody has done any research. Is this a 
spike? Do we go through cycles in the history of our country in 
which our embassies, and particularly these buildings we are 
talking about today, quite apart from the personnel who are in 
them, have been targets for the vicious attacks that you have 
discussed?
    Does anyone have any historical perspective of this 
phenomenon?
    Ambassador Taylor. Mr. Chairman, I think terrorism as a 
phenomenon, and our embassies as a symbol of America, American 
power and American values have increasingly, since the sixties, 
become increasing targets.
    The Chairman. You would say since that point?
    Ambassador Taylor. Since that point.
    The Chairman. Because a lot of these places were built, as 
you pointed out, up against streets, thoroughfares, right in 
the middle of major cities, so apparently people who were 
building them in those days and those that occupied them for 
decades did not have the same fear that we have been talking 
about today.
    Ambassador Taylor. Indeed, that is quite true.
    General Williams. But I will point this out, Mr. Chairman, 
that as we were opening the embassy in Nairobi, for example, 
obviously some very senior host nation officials were in 
attendance, and they were very supportive and were quick to 
point out that we were doing it right. So we are at a time now 
in our operations where it has been a sea change, and we hope 
that the condition of our buildings will not be at this level 
for much longer. I do think it is recognized worldwide that we 
have to take a different approach.
    The Chairman. You mentioned earlier, and I touched upon 
this in my opening statement, that we are trying very hard to 
have embassies that are at least approachable. I mention just 
anecdotally an experience several years ago, when I was one of 
the first guests in our new embassy residence in El Salvador.
    Now, during the 1980s when there were serious problems in 
that country, at least some of our diplomats desired to go 
outside of town, and they did. The place was out of town, and 
it did have a wall around it.
    Some of the personnel in the embassy said it is not like 
the old days, where you have coffee downtown, and you would 
pick up on the street gossip and the local rumors. Something 
has been lost here. As professionals, in watching this 
academically as well as professionally, do you feel it is a 
reasonable compromise? In gaining the security, do we still 
have a feeling that we are a part of the community, to the 
point that other nationals are willing to come in and share 
with us what is on their mind?
    General Williams. Let me just say from a building 
perspective we are utilizing all new green sites, Beijing, in 
China, is a good example. Where we select these sites, we do a 
lot of coordination with the host government to determine where 
the planned development and growth will be going. We try to 
always build in the corridor where the new development is 
headed. So we have a new embassy compound that is going up in 
Beijing, for example, and in other places, Zagreb, I can 
mention that as well. At each location we are building where 
the future new and modern business will be.
    The Chairman. So your research encompasses local plans and 
some sense of confidence on the part of the local governments?
    General Williams. That is correct. That is correct.
    The Chairman. So they know where you are building, and that 
is consonant with their ideas.
    General Williams. That is correct, and also during the 
period of time while we are building, local and new activities, 
hotels, office buildings and the like are being built by the 
host country.
    The Chairman. Now, during another hearing we have had this 
week as a part of the buildup toward the authorization bill for 
American diplomacy, we discussed the idea that you mentioned 
today very prominently, of cost-sharing. We discussed who 
exactly are in our buildings, our annexes and other facilities. 
We were visiting with people from the intelligence community, 
from the Treasury, the FBI and others, and I would say one of 
the nice things about the hearings this time around, as opposed 
to a couple of years ago, is that all these people are getting 
along better with each other.
    I can remember in the post 9/11 days having some hearings 
behind closed doors in which people within our own government 
became so agitated at each other, and so visibly angry, that 
they went back to their principals--and I can remember one 
occasion where Cabinet officials were engaged in arguments that 
afternoon that their subordinates had been involved in that 
morning. Everybody went back to a firewall mentality.
    Now, at least with FBI, Treasury, Customs, these people all 
seem to be saying really nice things about each other, as well 
as the State Department. This leads me to the question, in our 
total government picture, does everybody have the same idea of 
cost-sharing?
    In other words, in the Treasury budget submission this year 
do they have an item for paying State Department something, and 
does OMB adjudicate all of these claims as to what is 
equitable? Physically and bureaucratically how does it work?
    General Williams. Let me try and give you what we know at 
this point. We have tried to put in place a system and an 
approach that is fair. We are using a per capita approach 
because we did not want to deal with the square footage 
approach as it has caused some problems in the past. So if you 
are in a classified seat you pay for a classified seat, if you 
are in an unclassified seat, you pay for an unclassified seat 
and it makes it very equal across the board. We are proposing 
that this cost sharing apply to all facilities and not just new 
ones.
    Any time you introduce a break from a tradition, 
particularly where you have not had to budget, obviously there 
is a little feedback and a little push back. I frankly think, 
Senator, we can get over this. It is going to be a transitional 
period. What we have said to OMB, that we think the plan ought 
to be phased in over maybe a 5-year period----
    The Chairman. A phase-in period.
    General Williams. A phase-in period to allow everybody to 
vet and participate.
    We have also put in place an interagency facilities council 
where all of the participating tenants can come together at 
least three or four times a year and hear DOS, who is the 
manager of the program, explain what is taking place. This 
gives them an opportunity and a sense of participation.
    The Chairman. Are they all examining the rents together, 
and they know per capita----
    General Williams. That is correct.
    The Chairman. But then, do all pay?
    General Williams. Well, we are expecting all to pay once we 
get this launched, and OMB is in the process of becoming the 
adjudicator on budget structure. We still are working with them 
to make certain that we get the program fine-tuned as to how 
the budget will work. I believe, Senator Lugar, this will do 
two things for us. First, it will help us get the sizing right 
at each post. I think also we will be building the right type 
of facilities. It allows DOS to get out of the deep hole that 
we are in and get our new facilities on line much faster.
    We have got 160 new embassies to build. It is going to take 
a lot of money. This concept will generate more income or more 
funds for us. It will help us move from the $800 million or so 
a year to the $1.4 billion level that we need. I just think it 
is the right path to go. We can sunset this, because it will 
not be a program we would have to keep in place forever. I 
estimate that we could get the 160 done, then we could look at 
either phasing the program down, or possibly terminating it, 
depending on how we are doing at that time.
    The Chairman. I just have one more question. You point out 
that $1.4 billion is required per year to do all of this in 12 
years, as opposed to the 20-year time line that you have. 
Certainly, in terms of the security of our people and of our 
buildings, the shorter term option would be ideal. Twelve years 
is a long time in this world, as to how many things may change.
    General Williams. That's right.
    The Chairman. This committee has encouraged the Secretary 
of State overtly at roundtables like this, or in more public 
situations when he appears in the Caucus Room in the Russell 
Building, to ask for the money, because without very strong 
advocacy by the Department the request is unlikely to survive 
several other scrutinies. Have you asked for it this year? What 
is the level that you approached OMB with, or what did they 
grant? Where do things lie at this moment?
    General Williams. Well, it is known because it is in our 
long range plan. It is fortunate right now we do have a long 
range plan in which we lay out the next 6 years of what we see 
the requirements to be.
    The method of providing us the millions, the billion and a 
half that we need, the cost-sharing mechanism is in place to 
generate about $600 million of it.
    The Chairman. Ah, so that gets you from the $800 million to 
the $1.4 billion.
    General Williams. That is correct. That is why the cost-
sharing initiative is so critical.
    The Chairman. Yes, but it phases in over 5 years, so you 
get just a piece of this at a time?
    General Williams. Yes. That is correct. We will have to 
work up to it.
    The Chairman. All right.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    A number of us on this committee have been very concerned 
about this issue for a long time, and I am very pleased that 
one of the early things Senator Lugar is doing in his 
chairmanship is to schedule this very subject for a hearing. I 
think I am accurate when I say that more Ambassadors have been 
killed in the line of duty over recent decades than admirals 
and generals put together, so our diplomats are at real hazard, 
there is no question.
    And looking at Mr. Ford's report from the GAO I am struck 
by how much is left to be done, and I say that without any 
intended criticism of those who are trying to bring things up 
to standard, because you start out with a huge backlog to be 
done, and I think under the circumstances a lot of very good 
work is taking place.
    The fact remains, though, that even under the best of 
circumstances there is a large time interval before we can get 
things up to the point where someone can come along and say, 
well, we have pretty well secured our facilities around the 
world, and it is good to go from 20 to 12 years, but you have 
still got 12 years in between there where people are at risk, 
and that chart, of course, was just a further demonstration of 
it, the one that Mr. Ford provided, of how we are falling 
short.
    The Chairman. We saw before you came in, Paul, on the 
monitor graphic displays of explosions and what happens in 
these places without the items that are there.
    Senator Sarbanes. Which leads me to this question. Is there 
a kind of an emergency program to pick things up fast--I do not 
want to say makeshift--but with measures that do not represent 
a new embassy, or a completely refurbished embassy, but at 
least in the short run would have a substantial impact on the 
security situation? And how intense is that program? Anyone on 
the panel may wish to reply. Mr. Ford, do you want to take a 
crack at that first before we go to the others? Do you 
understand the question?
    Mr. Ford. Well, I--yes, I think I know your question. As I 
mentioned in my statement, the State Department at least 
immediately after the bombings received a substantial amount of 
money from the Congress to do security enhancements which were 
designed to address the immediate problems at facilities 
overseas.
    So, for example, they did install some of those anti-ramp 
barriers that I mentioned earlier to help protect against car 
bomb attacks. They did install the controlled areas to try to 
make sure that people were properly screened, and vehicles were 
properly screened. They did install some perimeter fencing. 
They put in mylar on windows so the glass would not shatter, 
which caused quite a bit of the deaths in the bombings in 
Africa. So I think there has been a lot of steps that the 
Department has taken to try to mitigate some of those problems.
    The problem is that we are pretty much at the end of that. 
Now we have other physical security problems, as I outlined, 
that have to be addressed, and absent a new building, I cannot 
speak for the experts, but I think they have a problem in 
trying to make those places as safe as they can be for the 
people who have to work there.
    Senator Sarbanes. Does anyone want to add to that?
    General Williams. Yes. Senator Sarbanes, I think that our 
problem is exactly the way you put it. Can we do something in 
the interim as an emergency? Yes, we can. We have looked at a 
number of ways. We have received some good input from industry 
on being able to put up a very quick, hardened type of facility 
which can serve as an interim until such time that we could do 
it completely right.
    What we are talking about from the standpoint of the 12 
years is building that embassy compound that has all of the 
features and structures that it takes to run the business, the 
chancery building, our consulate, has the general services 
building, quarters for our marines, parking, and all this is 
enclosed in a secure 9 foot, anti-climb wall.
    Can we do something in the interim that is quicker? Yes, we 
can. It is a question of being able to get sufficient funding 
for that. We really want to be able to, with investments of the 
magnitude we are talking about. In summary, we wanted to make 
certain that we put something in place that had a useful life 
that would justify the investment.
    Now, could we manage more than 1.4? Yes, Senator, we could. 
We could, even today with our management capacity--of course, 
Mr. Ford will have some comments about this when he finishes 
his report. I think we could operate very comfortably with $1.8 
billion a year. This would cut that time from 12 to something 
around 10 years. We pegged at this $1.4 billion amount because 
we thought it was reasonable from the standpoint of what we are 
trying to move from, but yes, we could go faster.
    Senator Sarbanes. Let me put the question in a somewhat 
different way. Are you satisfied in your own mind, sanguine 
about the prospect that if something happened at one of our 
embassies, in the aftermath someone would not come back and 
say, well, you know, if they had done one, two, and three--they 
had a plan to completely redo this embassy compound, but that 
was x number of years away, and that was lined up in the 
priority key and someone made a judgment that other things 
should come ahead of this place, and we think all of those 
reasons were correct, but what they failed to do was to do the 
kind of survey that came back and said, gee, you know, they 
should have done this and that, all of which could have been 
done in a very short period of time, and not at a huge project 
expense, and that would have given them a heightened security 
and might well have avoided the considerable amount of the 
damage that was done?
    Now, in the sense, have all of the embassies been scrubbed 
down with that kind of an analysis?
    Ambassador Taylor. If I may, Senator Sarbanes, I think you 
are absolutely correct, and we have done that. Certainly the 
standards that General Williams is building buildings to, and 
the time line is a projected time line, but in the interim we 
have installed interim upgrades to all of our facilities.
    We have worked to add surveillance detection and guards and 
have worked with governments to close streets to give us more 
stand-off. That's not always possible at every facility, but 
there is not an RSO or a Chief of Mission anywhere in the world 
that does not examine this on a daily basis.
    The legislation setting forth the standards has given us an 
opportunity to approve waivers that increase, marginally 
increase security at facilities while not meeting all of the 
standards, so we have applied those waivers where we could 
improve the security of our people or our facilities in the 
interim until such time as we have the money to build.
    Senator Sarbanes. Now, in some instances, I presume that a 
deficiency in the physical facilities can to some extent be 
made up by personnel. If you have more personnel doing a more 
careful job, you can compensate for it, at least in the 
interim, which leads me to this question. I am very interested 
in this proposed Center for Antiterrorism and Security 
Training.
    Now, they went out and vetted a lot of sites and the 
conclusion that was reached, as I understand it, was that it 
ought to go into the Aberdeen Proving Ground up in northeast 
Maryland, for a lot of reasons. There are a lot of existing 
facilities there that can be refurbished. There is 
infrastructure in place that would provide logistical support. 
There is ample room for expansion, a lot of compatible units 
for interface, and so forth.
    Now, there was funding for that, but it was dropped in 
conference on one of the appropriation bills. Is it going to be 
included in the supplemental? I mean, it seems to me this is 
something we obviously need to move on. I gather that it is 
cost effective because it would consolidate all of these 
various training activities that are located in a lot of 
different places and establish a proper center with a high 
level of training.
    Should we expect to see that in a supplemental, or would 
this not be a particularly opportune time to try to move this 
Center for Antiterrorism and Security Training forward?
    Ambassador Taylor. If I may, Senator Sarbanes, certainly 
the CAST, the Center for Antiterrorism and Security Training 
has been a high priority and remains a high priority for the 
Department for two reasons; one, as you mentioned, the ability 
to consolidate training of our agents and, most especially, our 
antiterrorism assistance program where we train foreign police, 
law enforcement, and security organizations in the latest 
techniques of antiterrorism and combating terrorism, has been a 
key part of the President's war on terrorism for capacity 
building, improving the capability of our partners to work with 
us on antiterrorism.
    I am not at a point where I am allowed to speak on what the 
President may put forth in the supplemental, except to say that 
it is a priority for our Department and we will continue to 
work hard to try to bring it online, because we believe it is 
cost effective and important to our future.
    Senator Sarbanes. Mr. Chairman, let me just note that when 
Ambassador Taylor says he does not know what the President will 
put forward and whether it is a high priority for the 
Department, I mean, the only intervening institution in this 
decisionmaking process is the Office of Management and Budget, 
and I have to say, because we seemed to encounter the same 
problem on a lot of homeland security measures as well, where 
they seem to be moving up from the operating agencies and then 
somehow they get swallowed up somewhere into the dark as they 
are trying to make their way forward, that it seems like we 
need some new thinking, perhaps, at OMB about the urgency of 
some of these matters and about moving things forward. They 
seem to be the only ones who have not broken out of the old 
cast of thinking in terms of addressing the situation. You all 
are not expected to comment on that. I just wanted to put that 
on the record.
    Could I make one final point? I have some concern--I think 
Senator Lugar expressed it earlier--that we do these things in 
a way, and I think we have to provide some imagination and 
innovation in order to do this, where we get the heightened 
security without transmitting some message that we are in a 
complete bunker mentality, and that the nation that was founded 
on freedom and liberty does not present an image of a closed 
society. I think we have to be careful. We even have a problem 
around the Capitol, doing it here, to be honest about it.
    And in that regard I have one experience that I want to 
communicate, and I hope you all will check back on it. At the 
American Embassy in London, on Grosvenor Square, at the western 
end of the square that comes right up toward the embassy and 
faces the front of the embassy, the embassy has sealed off the 
street at the front. London has agreed to do that, so that is 
blocked off.
    They have put up fences into the park itself, into the end 
of the park, very unattractive fences, if I may say so, but 
that is to keep people from going to the upper end of the park 
where they would be right opposite the embassy, across the 
street from the embassy, so it backs them into the park and 
gives you kind of a no-man's zone at the upper end of the park.
    Unless something has changed since I last saw it, behind 
that fence, it looks like a trash heap. I mean, it is really a 
mess. So you have got this ugly looking fence, and you have 
this area behind the fence, still part of the park, but it has 
just been allowed to go to pieces. The whole thing looks 
terrible.
    Now, it does not need to look terrible in order to enhance 
security. In fact, I would think that having this, the 
vegetation and everything probably harms the security rather 
than helps it, because it provides a certain amount of 
concealment.
    Anyhow, could someone get back to that embassy and see what 
they can do about it? They could put up a nice fence and then 
maintain the area behind the fence, and we would not have this 
appearance problem.
    Ambassador Taylor. Senator Sarbanes, if I may respond, just 
two comments. First, in my first job in the Department as 
Coordinator for Counterterrorism and in this job as Assistant 
Secretary for Diplomatic Security, the Secretary has made it 
very clear that he shares both yours and Senator Lugar's 
concerns, as well as the committee's concern, about American 
diplomacy not being conducted from a bunker.
    Security is a very, very important part of what we do, but 
it is not the reason that we are there. We are there to conduct 
the foreign policy of America, to represent American values, 
and we can assure you that that is a constant part of what we 
consider as we try to put forth the security arrangements for 
our people and facilities.
    Second, I am informed that we are presenting a plan to 
Westminster authorities to improve the image that you've just 
described for better security this month, and I would be happy 
to share with your staff what the plan is.
    Senator Sarbanes. OK. I would be very interested in that.
    The Chairman. That is a major victory of this hearing.
    General Williams. Senator Sarbanes, let me just mention 
about the aesthetics and the bunker mentality. I commented and 
responded to the chairman earlier that this has been one of the 
things that we have paid an awful lot of attention to, and part 
of helping us get it right from that standpoint, we have an 
industry advisory panel, people who do this for a living, who 
advises us. It is a standing panel on these and other matters, 
on how to capture the security requirements and at the same 
time ensure that the building looks like a modern office 
building and suitable, from a representational standpoint, for 
diplomatic business.
    For an example, our new facilities that just opened in East 
Africa and Tunisia, as you walk into the grand entrance into 
either one of those facilities, you see a very modern building 
that looks very much inviting. It looks like other very modern 
structures in that country, and we have taken great effort to 
make certain that the building itself would carry a modern 
look.
    At the same time, we have to, because of windows and other 
security matters we have to do, we try to blend those in and 
then put a facade on the building that looks like the rest of 
the structure, so we are paying attention to that.
    Senator Sarbanes. Well, it is important, because obviously 
the embassy is a major statement by the United States in the 
particular country in which it is located, and lots of people I 
think form impressions about us from the embassy.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sarbanes.
    I have two questions, one of which addresses priorities. 
This is a more difficult problem, than it used to be, in that 
it affects some countries that are perceived as more likely to 
produce hostility against our embassies.
    Now, I suppose given the war on terrorism, we are not 
really dealing with nation states, but rather we are dealing 
with individuals who may be from many countries, and who set up 
a resident cell, or who come in to the country really to do 
their dirty work, so it could be a country that is relatively 
placid that is visited by these people who threaten our 
embassies.
    I am not certain how you focus on priorities, yet there 
must be some sense of which embassies are most vulnerable. I 
just want some assurance that this is a part of the 
consideration.
    General Williams. Yes, Senator, we do. In fact, our 
diplomatic security side of State makes a vulnerability 
analysis on what is the most vulnerable and they feed this back 
to us, and we operate from that list. That sets the priority, 
and we go out and we purchase--we tie everything to that 
priority list, so what is considered to be No. 1 is what we 
work from, all the way down through the entire list.
    Ambassador Taylor. Every country also, Senator, General 
Williams is correct, every country performs security to a 
certain level, so while their facilities may be somewhat more 
vulnerable or less vulnerable than others, they have other 
things in their security kit bag in terms of local 
relationships, surveillance detection, working with 
intelligence and security services, that helps provide the 
outer rings of security that are so necessary in places that 
once we did not think were as vulnerable as we found in 1998 in 
Africa, when we were expecting attacks in one place and they 
occurred somewhere else. So this is a part of how we do 
security on a day-to-day basis around the world.
    The Chairman. Now, on another note one of the joys of 
embassies or consulates or American studies in the past were 
libraries, containing displays with pictures or artifacts of 
our country. One of the great values of these places were their 
accessibility, where you could walk in or go by on these same 
streets that were abutting the traffic, and see some very 
attractive aspects, pictorially or otherwise, of our country 
that might intrigue visitors.
    How do we do that now? How do persons, young persons, old 
persons, anybody who is interested in our country, find this 
resource behind all the barriers? Do we advertise that it 
exists and make it less formidable, so somebody might walk in? 
I am just curious as to your perception of how we meet this 
mission. Or have we just decided that in a dangerous world, 
that's just the way it goes and we really cannot do that sort 
of thing anymore?
    General Williams. First of all, for the new facilities, 
Senator Lugar, that we are putting up, they are well 
advertised, in terms of----
    The Chairman. All the features they might have for the 
local people?
    General Williams. That is correct, and also in terms of 
ensuring that our embassies have the right type of art and 
representation of America, we work with--and of course we have 
an arts in embassies dimension in our business, and also we 
have a lot of civilian groups that work with us, and we allow 
them to donate the art.
    For an example, when we get about halfway through with the 
construction of a building, we bring in those who want to 
donate art, those who want to participate and help with us, and 
they come together and put in place some wonderful pieces. And 
I hope through your travels you will have an opportunity to 
visit some of the new embassies we are putting up now, and you 
will see nice sculpture, you will see nice representation of 
America.
    For an example, even in East Africa we have on one floor, 
which represents sort of the Old West, you can look and you can 
see representation through murals and paintings and art that 
would give you an impression that you are in the Western part 
of the United States, so all of that makes a big difference as 
well.
    The Chairman. Well, general, on that point--now, I have not 
been into all of these places, but I have been into several and 
I have seen just what you are talking about, and it is very 
exciting. What is not clear to me is how an ordinary citizen 
off the street is going to see the same thing.
    You know, I have an American passport and some people know 
who I am, so I can go in there. But I am also concerned that 
the same things that I am seeing, that I am excited about are 
there as a part of the experience, is no longer available. This 
is not your problem precisely. You are talking about buildings 
and security. Although, it is your problem in a way, so that 
you plan building security with this consideration and in such 
a way that our overall mission, or one part of it, is achieved.
    Ambassador Taylor. If I might, Senator Lugar, I agree with 
you, it is a challenge, and former Under Secretary Char Pierce 
in her efforts to reach out through public diplomacy has begun 
to build partnerships with many countries overseas to try to 
balance using the Internet, using other display techniques that 
can be done more securely and still allow that kind of face of 
America to be presented to citizens around the world, so it is 
a challenge.
    The notion that we would have cultural centers out there as 
they once were, where people could come in and go, is a very 
difficult thing to do in today's security environment, but we 
are working with public diplomacy to allow them to do the 
outreach so important to what they do, but to do it securely, 
and allowing American values and a better understanding of 
America to get to people around the world so they really do 
learn who we are.
    The Chairman. In the same way, this committee is 
preoccupied as Senator Sarbanes has pointed out, with the 
security issues. We have spent productive time with 
professionals like yourself. We are in the public diplomacy 
area, and you may be doing better in security than we are doing 
in public diplomacy, although this is arguable. Both are very 
tough challenges, but nevertheless, they are both important, 
and trying to determine how to do these things simultaneously 
is a challenge.
    Now, let me ask finally: you have identified 260 buildings 
in the discussion here today. Is this number likely to go up or 
down? We witness new nations being formed from time to time, of 
course, and some do not have full ambassadorships, but they are 
still important facilities in terms of security. In your long 
term projections, does the Secretary or anybody else give you 
any direction as to whether American diplomacy is going to 
expand architecturally or physically? Are we assuming that 260 
is it, and then we can amend it plus or minus 5 or 10, if 
necessary?
    General Williams. Well, in our long range plan, Mr. 
Chairman, we are looking at 260 as sort of being where we are 
going to be pegged. Obviously, we may have a plus-up of one or 
two here and there, but I think for the purpose of putting a 
strategic plan in place on sort of where State will be, I think 
it has been accepted that it is 260.
    The Chairman. Let me ask the question this way. A country 
the size of China, for example, may still be expanding 
dynamically. We do not know precisely what the population 
trends will be there, or anywhere else. It is a very big place, 
a billion people more or less, and becoming more and more 
sophisticated as the wealth of the country grows, along with 
the infrastructure of their cities in various locations.
    We have a fine embassy there, and you have illustrated 
where we are headed there, with some other outposts. But it may 
be discovered in the fullness of time that we will need more 
facilities if we are to have an impact there, whether it is in 
public diplomacy or in processing of visas, or all of the 
regular things.
    I can see that in China, or in India, or some countries 
that have very, very large populations, that ties with the 
United States will expand and we want that to be the case in 
term of a peaceful world.
    That does not all have to be done in buildings, but still 
those are big countries geographically. I am just curious, from 
the standpoint of long range planning, whether people are 
considering this sort of situation.
    General Williams. Well, from the standpoint, Senator, of 
looking at presence, in our plan we ask our political and 
economic people who are making forecasts about what the 
presence in a particular location should be, they give us the 
footing that we need in order to project the facilities, so we 
take our lead from the presence input that is provided to us by 
those in DOS who are making those projections. So we can 
capture it in the plan, because in our plan for each project we 
talk about the importance and the significance of that 
particular location to do the U.S. Government's diplomatic 
activities.
    So to pick up and expand in a situation like you just 
mentioned, China is growing, Mexico is growing, we know that 
they are out there and something could happen. We would first 
try to solve the problem through some regionalization, or 
something of that nature, so that we would not have a major 
task of standing up another consulate, or a large embassy.
    The Chairman. Very well. Now, the flip side of this is that 
you are now into the cost-sharing business, and the number of 
agencies inside these places have been expanding over the 
course of time. New missions have been founded by other 
agencies of government, and then they have found you, so let us 
say they are prepared to pay the rent, but at the same time 
there may be more of them.
    In terms of the planning, you can do this on the back of 
the State Department, for instance, but is there any 
coordination, in which you ask Treasury or the FBI, or USTA or 
others, questions as to what their missions may encompass, so 
that as you are building these places they include a ball park 
estimate of what uses they may have?
    General Williams. Yes, Senator. In fact, the protocols for 
our planning, the front end part of planning is to go to the 
source, that is, go to the post. We send a planning team out to 
the post and sit down with the post. We start first with the 
authorized number of spaces for all elements and then have them 
try to think 6 years ahead with us and say--now, with cost 
sharing we have to add, understanding you have to pay for it--
so that we can get this right.
    So we come away with a sign-off by all. We require them to 
sign off on exactly what they think the prediction would be, 
and then we size the building from that information and we 
build in every new facility at 10 percent growth, so as to 
allow 20 or 30 additional seats in each building for 
unpredicted growth.
    Mr. Ford. I would like to comment a little bit in this 
area. We are doing another piece of work for the House, looking 
at the process the general mentioned about the other agencies 
establishing a disciplined process, and we are going to be 
issuing a report later next month which indicates that there is 
an issue here about how well they are doing in that area.
    The Chairman. I see.
    Mr. Ford. I know from talking to General Williams he is 
concerned that the numbers of the EBCs from all of these other 
parties are good numbers, because he has to build to that size, 
and he does not want to have to be in a position where we build 
an embassy that is going to be full the day we open and there 
is no room to grow, and that has unfortunately happened in a 
couple of cases.
    So I think you are touching on an important point. We are 
going to be making some recommendations to OMB and the State 
Department to try to get the other agencies, which seem to be 
where a lot of the problems are, to take it more seriously and 
have a more rigorous process to make sure they give the general 
good numbers to build against.
    The Chairman. Right, and this is a study now the House 
Foreign Affairs Committee has requested?
    Mr. Ford. It is actually the House Government Reform, 
Congressman Shays' subcommittee.
    The Chairman. Government Reform. Well, hopefully you and 
the Congressman will share your findings with our leaders. I 
appreciate knowing that Congressman Shays is interested in this 
issue. He has visited a good number of these places, sometimes 
with some of us. We appreciate that information.
    Senator Sarbanes, do you have any additional questions?
    Senator Sarbanes. Ambassador Taylor, who has the 
responsibility to try to address the security situation of 
Americans overseas, not our government personnel? It seems to 
me in the situation we now find ourselves through this 
terrorism threat that the most vulnerable of all are Americans 
overseas. Now, they may want to do a high profile thing in the 
United States, but at least that is here, but we have literally 
millions of Americans overseas, business people, students, 
religious people, and many of them are located in areas where 
they are almost there alone, so to speak. Does that come under 
your jurisdiction?
    Ambassador Taylor. It is a shared responsibility between us 
and our consular affairs people, and American Citizens 
Services. I think you know we have a very extensive Web system 
of getting consular notices out, warning notices out to 
Americans when Americans register, when they arrive in a 
certain country, so we know where they are and we know how to 
get messages out to them about threats. And that has been 
certainly a growing business since 9/11, although it was very 
large even before 9/11.
    The other thing we have that is probably the most effective 
public-private partnership is our Overseas Security Advisory 
Council, which has membership from more than 2,500 business, 
church denominations, universities, and it is growing at a rate 
of about 10 to 12 new entities every week that have joined 
OSAC, we call it. And OSAC is essentially an information 
exchange where private industry shares information among 
themselves as well as with us on threats to Americans 
throughout the world, and through that partnership we have been 
able to reach out literally to tens of thousands of Americans 
across the world.
    When we had the unfortunate assassination of the missionary 
in Sidon, Lebanon, it was through OSAC that we called in all of 
the missionary groups and spent a half-day seminar talking 
about soft targets and how we can help, or how they can work 
with us to help their missionaries as they are out around the 
world. So it is shared responsibility between OSAC, our Office 
of Citizens Services, and we take it very seriously in getting 
to American citizens as they travel the information they need 
to protect themselves.
    Senator Sarbanes. Has the GAO looked at any aspect of this?
    Mr. Ford. Not recently. Several years ago we did some work 
on the travel advisory system that the State Department put 
out. I can tell you that I believe the current level of effort 
that the Department undertakes to notify Americans is much 
better than it was, say, 10 years ago. You can pick up the 
Washington Post and look at the travel section on Sunday. There 
is almost always an advisory section in there that often comes 
from the State Department.
    The Ambassador mentioned OSAC, which is a new organization. 
I think it has only been in existence for a couple of years. 
Well, the predecessor to that, it was my recollection was that 
it only covered the business community, but I could be wrong. 
But I think overall the Department has definitely made much 
more of a conscious effort overseas.
    I know whenever we go into an embassy, the consular affairs 
section, that is a major part of what they are now focused on, 
is trying to find ways to keep the American community in that 
country informed about what is going on, so we have not 
assessed it in detail, but if I look back from where it was 
before, I think the State Department has done a much better job 
in this area.
    Senator Sarbanes. Now, you do not have the power to order 
Americans out of a country, do you?
    Ambassador Taylor. No, sir. An American citizen, no, sir.
    Senator Sarbanes. So if they choose to put themselves at 
risk, they can do so, right?
    Ambassador Taylor. Yes, sir. We certainly work with people 
to encourage them to leave.
    Senator Sarbanes. It is kind of anomalous to hear these 
reports coming out of Baghdad from press people who are sitting 
there watching the missiles coming in.
    Thanks very much.
    The Chairman. Much like, in a different venue altogether, 
seeing high rise buildings being built on the road up to the 
DMZ in South Korea. You wonder whether someone has a different 
kind of perception than we might have, but there you are.
    I think Senator Sarbanes' point is well taken. It is truly 
remarkable, given the number of Americans who are abroad in all 
sorts of ways, some of them permanently, others as students, 
travelers, businesspeople, that the number of security cases is 
so low that we are able to maintain a staff of just three 
people down in Colombia, for example. The sheer volume, and as 
Paul has elicited from you, the fact that you serve of your own 
volition, is impressive. If you want to go into harm's way, you 
can go ahead, and hopefully our State Department people, our 
consular people, are able to rescue you.
    Ambassador Taylor. Actually, Senator, it is one of those 
unsung here missions that our consular people do every day.
    The Chairman. Exactly. Which makes the quality of life for 
all of us, the extension of our freedom much more substantial.
    I really congratulate you all on the studies you have done 
prior to this hearing, and for the specific work in your 
testimony here. I think the graphics and the details of your 
studies that you presented were very, very helpful to us, and 
so we thank each of you for participating, and the hearing is 
adjourned.
    [Whereupon, at 4:25 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


                   Statement Submitted for the Record


           Prepared Statement of Senator Russell D. Feingold

    Mr. Chairman, today's hearing is especially timely. With war in 
Iraq, we are facing the possibility that these developments will 
provoke additional attacks on our diplomatic facilities abroad. Last 
year, as chairman of the African Affairs Subcommittee, I visited the 
site where our Embassy in Nairobi once stood, and saw the Memorial Park 
now devoted to the memory of the 212 people, including 12 Americans, 
who were killed in the August 1998 terrorist attack on the U.S. Embassy 
in Kenya. I have also visited our Embassy in Tanzania, which was 
attacked the same day. We have devoted a lot of attention to homeland 
security over the past 18 months, and rightly so. But our people 
overseas may also be vulnerable to the designs of international 
terrorists.
    Since the late 1960s, more than 200 U.S. Foreign Service personnel 
have been killed in the line of duty. Their names are engraved on a 
plaque in the lobby of the Truman Building. Most of the names have been 
added since 1983, and the list keeps getting longer. Secretary Powell 
tells us that more U.S. ambassadors have been killed in the line of 
duty since World War II than military general officers. We frequently 
say that our diplomatic personnel are our first line of defense in the 
fight against global terrorism. Yet nearly 18 years after the Inman 
Report, we are told that 160 of our 260 overseas posts do not meet 
security standards. I was recently in our Consulate in Capetown, South 
Africa, a clearly unsafe facility that has been raising concerns about 
security for some time. A new consulate is slated to be built. But that 
is little comfort to those who are working there now. A diplomatic 
career entails inherent risks. Diplomats must get out and mix with 
societies abroad in order to do their jobs. We cannot isolate them 
inside fortresses around the clock. But we owe it to them to keep those 
occupational risks to a reasonable minimum by providing safe and secure 
places in which to live and work. We can clearly do better, and we must 
do better. It shouldn't take 20 years to give our people the security 
that they deserve.
                              ----------                              


            Responses to Additional Questions for the Record


 Responses of Hon. Francis X. Taylor, Assistant Secretary of State for 
Diplomatic Security to Additional Questions for the Record Submitted by 
                      Senator Joseph R. Biden, Jr.

    Question. Does the Department disagree with anything presented by 
GAO in its testimony? In particular, does the Department agree with the 
statistics that the GAO presented with regard to the percentage of 
posts that don't meet the various security standards?

    Answer. The Department believes the GAO presentation was a fair and 
accurate portrayal of the security situation at our embassies and 
consulates abroad. The information used to prepare the GAO report was 
drawn, for the most part, from DS and OBO files and data, supplemented 
with trips to posts overseas by GAO personnel. The statistics were 
accurate insofar as they represent our primary facility in each city. 
At many of our posts there are multiple small office locations that 
also do not meet security standards, which must necessarily be 
collocated with any newly constructed U.S. Embassy or Consulate.

    Question. What are the primary reasons that current security 
standards have not been met?

    Answer. When the Department builds new facilities every effort is 
made to meet security standards. Congress wisely included a waiver 
clause in the Secure Embassy Construction and Counterterrorism Act of 
1990 (Title VI of Appendix G of P.L. 106-113 or SECCA, which for new 
construction requires all U.S. agencies in country be collocated and be 
provided 100 feet of setback) Since the enactment of SECCA, the 
Secretary has only approved seven waiver requests. In three cases, 
Luanda, Sao Paulo, and Belfast, security factors and national Security 
considerations led to decisions to build on sites or acquire a building 
that did not allow for a full 100 feet of setback. In the remaining 
four cases the Secretary agreed to requests by the Director of Peace 
Corps to allow its offices to remain off compound, in accordance with a 
``Sense of Congress'' that recommends he do so when permitted by 
security considerations.
    Where we have not built new facilities, it is for the most part not 
possible to fully meet security standards. Old buildings usually cannot 
be retrofitted to meet modern seismic or blast protection standards. 
Setback is not available in downtown settings where our facilities are 
traditionally located. Where we have been able to secure permission to 
install perimeter barriers and anti-ram protection, we have. But the 
majority of our facilities cannot be made to meet security standards 
unless they are replaced.

    Question. After the Africa bombings in 1998, the Department talked 
about moving away from a ``threat list''--with different levels of 
threat assigned to each post--because the attacks in Africa made it 
clear that the terrorists had exploited a vulnerability. That is, the 
terrorists figured out that we didn't regard posts like those in East 
Africa as high threat posts. Given the recent attacks on U.S. 
personnel--such as those attacks on military personnel in Kuwait, or 
the assassination of Mr. Foley in Jordan--it seems obvious that the 
terrorists are looking not only at hard targets but softer targets such 
as personal residences. We also have a lot of facilities, like AID 
missions or former U.S. Information Service buildings, which are not 
collocated on Embassy compounds.
          a. Please describe how you assess the threats at each post.

    Answer. From a macro perspective: Upon the receipt of threat 
information, the U.S. Embassy or Consulate's Emergency Action Committee 
(EAC) will convene immediately to discuss the credibility of the 
information and implement the necessary security measures to combat the 
threat. The DS Regional Security Officer (RSO) and all other post 
security and counterterrorism elements are represented in the EAC, 
which is usually chaired by the Ambassador or Deputy Chief of Mission 
(DCM). In Washington, DC, all significant threats are discussed twice a 
day (and once on Saturday) via the secure video meetings convened by 
the NSC's Counterterrorism Security Group (CSG). All key agencies of 
the Intelligence Community are represented and contribute in this 
meeting on a daily basis. Diplomatic Security chairs for the Department 
of State.
    From a micro perspective: The responsible DS intelligence analyst 
will (1) consider the source of the threat, (2) the logic of the 
threat, (3) the tactical tendencies of the group responsible for the 
threat, (4) the targeting patterns of the group, (5) the geographic 
capability of the group, and (6) the vulnerabilities of the intended 
target. The threat will either be assessed as (a) credible, (b) not 
credible, or (c) insufficient data to determine credibility. If (c) 
then the DS analyst will try to acquire more information by going back 
to the agency or post that acquired the initial threat information. The 
responsible DS analyst will discuss the threat with other DS analysts 
and officers, State Department officials, and the Intelligence 
community to obtain different opinions of the threat and the group 
responsible. This process helps the analyst produce a more accurate 
assessment of the threat. Assessing terrorist threats is still an art 
and not a science. As in art, threats can sometimes be interpreted 
differently.

          b. What is being done with regard to providing security at 
        residences? What further steps are you contemplating?

    Answer. Over the past year, security coverage at both official 
facilities and residences has been expanded beyond that envisioned 
after the 1998 bombings of the U.S. Embassies in Nairobi and Dar es 
Salaam. These security increases are related to crime factors as well 
as the ongoing war on terrorism.
    In FY 2002, DS provided $66,053,100 primarily for static 
residential guards, residential foot patrols, mobile patrols, and 
residential security upgrades to include application of Shatter 
Resistant Window Film (SRWF) at residences. The FY 2003 projection is 
at least $84,094,400, a significant increase in protection and 
resources. Program improvements to provide greater security to official 
USG personnel under Chief of Mission authority include: (a) Providing 
additional funding to support increased levels of police presence at 
official facilities and residences; (b) Expanded Surveillance Detection 
assets to high profile residences, route analysis, schools, Embassy 
social events, residential compounds and Embassy clustered residences; 
(c) Increase the level of static guard coverage at residences in 
conjunction with more effective mobile patrols; (d) Encourage posts to 
develop appropriate housing pools to maximize available security 
resources.

    Question. In 1999, Congress enacted the Secure Embassy Construction 
and Counterterrorism Act of 1990 (Title VI of Appendix G of P.L. 106-
113). Section 606(a)(2) required that all U.S. agencies in country be 
co-located on the compound. Section 606(a)(3) required that there be 
100-foot setback from the perimeter at each newly acquired facility. 
Congress provided some flexibility in the statute by allowing the 
Secretary of State to waive the restrictions if he can certify that 
security considerations permit the waiver.

          a. Please describe the process for implementing these 
        requirements. Are these standards still appropriate? Should 
        they be strengthened? Or are they too restrictive?

    Answer. Every request for a waiver is carefully weighed. The tenant 
organization requesting the waiver submits the request to the post and 
to Diplomatic Security. The request for a waiver must first be 
supported by the head of agency resident at post, and then be vetted 
and have the support of the Chief of Mission and the Regional Security 
Officer. If granted, documentation explaining the request along with 
CON and RSO concurrence is forwarded to DS. The Physical Security 
Programs office reviews all the factors and makes a written 
recommendation in the form of a decision memorandum. The Chief 
Operating Officer of OBO, General Williams, is consulted if it is a 
State Department property, and then the DS Deputy Assistant Secretary 
for Countermeasures reviews the submission. The Assistant Secretary is 
then requested to decide, factoring in essentials such as the security 
factors, threat, national security requirements, and local conditions. 
If it is delegable, the Assistant Secretary approves or disapproves the 
request. If it is non-delegable, he makes a recommendation to the 
Secretary. The requirement is appropriate.

          b. What factors led you to recommend a waiver (in those cases 
        not delegable) or agree on a waiver (in those cases delegable)? 
        In what cases have waivers been appropriate?

    Answer. In non-delegable cases, I have only recommended one waiver. 
This was for relocation of Consulate General Belfast to a newly 
acquired building. The Department will not be able to replace all its 
facilities with newly constructed buildings, even if funding for 160 
new embassy compounds is provided. Alternate execution strategies such 
as acquiring already constructed facilities and enhancing their 
security must also be utilized. In this case, the combination of 
overall security, local conditions, and a realization that this 
facility was likely to be the best available led to the recommendation.
    In delegable cases, where no new construction was taking place, the 
A/S for DS authorized waivers based on the type of operation, i.e. 
American presence post, a consular agency, or CDC office, the security 
provided, and local security and threat conditions. The waivers were 
appropriate in all cases.

          c. Of the waivers granted for AID and Public Diplomacy 
        facilities in CY2002, please provide information on the amount 
        of setback that will be provided at each facility.

    Answer. USAID, Office of Public Diplomacy, and CDC waivers of 
Setback--2002. (Dates listed below are dates the waivers were signed by 
DS.)

Kinshasa
    Waivers of setback and collocation were granted by the Acting 
Assistant Secretary on 08/21/02. The waivers permitted the new CDC 
office to be located in the Mobil Oil Building and the expansion of the 
already existing USAID office in that building. The 10-story building 
has commercial office space on the first, second, and third floors. The 
fourth through 10 floors are apartments. The building has the following 
setback:

  <bullet> South side--60 feet;
  <bullet> West side--35 feet;
  <bullet> North side--zero to 70 feet; and
  <bullet> East side--five feet.

Minsk
    Waivers of setback and collocation were granted by the Assistant 
Secretary on 02/04/02. The Public Diplomacy Office is located on the 
ground and first floors of a three-story commercial office building. 
Setback from the exterior of the building to the perimeter is more than 
100 feet on two sides and approximately 60 feet on the other two sides.

Sarajevo
    Waivers of setback and collocation were granted by the Acting 
Assistant Secretary on 06/17/02. The waivers allow the relocation of 
the CPA and GSO offices to space on the first through fourth floors and 
a portion of the fifth floor of the USAID NAB, a 12-story office 
building leased in its entirety by USAID. Following renovation, USAID 
occupies the sixth through 12th floors.
    Original acquisition of the USAID building was approved 11/12/99 
with the setback from the property perimeter as follows:

  <bullet> North side (river)--five feet;
  <bullet> East side--105 feet;
  <bullet> South side--52.5 feet; and
  <bullet> West side--100 feet.

Tirana
    Waivers of setback and collocation were granted by the Assistant 
Secretary on 01/02/02. The waivers allow temporary relocation of the 
USAID offices to the second floor of the nine-story Sheraton Hotel 
until completion of the Embassy Annex on the Embassy compound. The 
hotel building has setback from the property perimeter as follows:

  <bullet> North side--65.7 feet;
  <bullet> East side--360 feet;
  <bullet> South side--425 feet; and
  <bullet> West side--360 feet.

    Question. General Taylor, in your written testimony, you describe 
the effort to respond to threats against personnel in our State 
Department facilities domestically and abroad. I understand that you 
get numerous threats at post every day.

          a. Has the volume and nature of threats to our overseas 
        personnel changed significantly since the September 11th 
        terrorist attacks? What is the volume today?

    Answer. Since 9/11, there has been in increase in the volume of 
threats directed at overseas U.S. diplomatic facilities and personnel. 
Such increases are normally seen after major terrorist attacks and 
controversial U.S. foreign policy or military actions. Similar 
increases were noted after the 1991 Operation Desert Storm, 1998 East 
African Embassy bombings and the 2000 attack on the USS Cole. The 
current military action in Iraq will also most likely generate an 
increase in terrorist threats.
    The nature of the threat against overseas U.S. diplomatic interests 
has not significantly changed. The threat scenarios still primarily 
involve attacks on our facilities either with standoff weapons or 
vehicular suicide attacks. However, since the attack in Bali we have 
noticed an increase in terrorist threat reporting concerning plots and 
interest in ``soft'' U.S. targets. Many of these reports involve al-
Qaeda. As we harden security around our facilities and principal 
officers, it is logical that terrorists would look for softer U.S. 
diplomatic targets. It is not yet clear whether this is an emerging 
trend or simply a temporary tactical shift. Terrorists still believe 
that they acquire more political capital by attacking a U.S. Embassy or 
assassinating or kidnapping a principal officer than by attacking soft 
targets. Attacks on soft targets may simply be a holding action 
designed to demonstrate that the group is still active and to inspire 
local sympathizers and supporters.

          b. Does the Department have the resources to investigate such 
        a volume of threats? And if the volume should increase 
        significantly?

    Answer. The Diplomatic Security Service is adequately staffed and 
prepared to respond to the current volume of threats and has the 
capacity to absorb an increase in threat related investigative activity 
for a short period of time. However, our current resources do not 
provide us with the flexibility to respond effectively to a sustained 
period of increased threats requiring an investigative response. Such a 
situation will tax DS personnel and force reallocation of resources 
from other critical programs impacting on both Department and national 
security priorities.

          c. How do the various entities in a mission--Diplomatic 
        Security, FBI, CIA, and others--coordinate within a post and 
        with Washington to investigate a threat?

    Answer. The Chief of Mission (CON) is ultimately responsible for 
security at post. His primary security advisor is the RSO. The 
Emergency Action Committee (EAC) is an organization established at a 
Foreign Service Post by the CON or principal officer, for the purpose 
of planning and coordinating the post's response to contingencies such 
as threats. The RSO, CIA and FBI are just three of the many members of 
an EAC. The RSO submits a cable to Washington on EAC meetings. In 
Washington, DC, all significant threats are discussed daily (except 
Sunday) via the secure video meetings convened by the NSC's 
Counterterrorism Security Group (CSG). All key agencies of the 
Intelligence Community are represented and contribute in this meeting 
on a daily basis. Diplomatic Security chairs for the Department of 
State.

    Question. The most recent semi-annual report of the Inspector 
General (covering April to September 2002) contains a summary 
discussion of the review of the 28 missions it inspected in this 
period. The unclassified part of the report says this:

          ``Of all the findings the most prevalent pertained to 
        emergency preparedness. U.S. Missions are required to review 
        Emergency Action Plans on an annual basis and to submit a fully 
        revised plan every three to five years . . . the inspections 
        determined that more than half of the missions had not 
        conducted the required review and testing of their emergency 
        procedures. The importance of these findings cannot be 
        overstated. As noted by survivors of the most recent large 
        vehicle bomb attacks against the U.S. Consulate in Karachi, 
        Pakistan, the lack of personnel injury was attributed to the 
        instinctive response by staff as a result of frequent emergency 
        procedure drills. The deficiencies noted in all emergency 
        procedure programs are easily correctable, usually requiring 
        little if any additional resources.''

    The report also asserts that in the area of physical security, the 
``most common deficiency was the lack of current technical and physical 
security surveys. These reviews are essential to ensuring the currency 
of the mission's physical, technical, and procedural defenses.''

          a. Do you agree or disagree with these conclusions?

    Answer. The Bureau of Diplomatic Security agrees with the 
conclusion that a well formulated Emergency Action Plan (EAP) that all 
members of the Emergency Action Committee (EAC) contribute to and 
participate in can indeed prepare a mission for emergency situations. 
Additionally, the annual review for accurate information and full 
participation drills are a key element in emergency preparedness of a 
post.

          b. If you agree, what is DS doing to remind ambassadors and 
        regional security officers of the importance of security drills 
        and of conducting regular surveys?

    Answer. In January of 2001, the Department at the request of the 
Bureau of Diplomatic Security changed the 12 FAH 1, Emergency Plans 
Handbook (EPH), Section H-060 Drills, to reflect new guidance to 
missions for types and frequency of drills. To reinforce this and other 
changes to the EPH, Diplomatic Security provides all outgoing 
Ambassadors, Regional Security Officers (RSO), Assistant Regional 
Security Officers (ARSO) and Post Security Officers (PSO) with 
briefings and training on general EAP preparations, changes in the EPH 
and post specific needs and requirements for emergency preparedness. 
Additionally, DS reminds the EAC Chairperson and RSC via State cables 
when their specific EAP is due/overdue for revision. As major changes 
are made to the EPH, State notification cables are sent to all posts 
advising of the changes and compliance requirements. The post Emergency 
Action Committee (SAC) is responsible for ensuring that periodic drills 
are conducted and reported per 12 FAH-1 Section H-063. The EPH is 
considered a living document and changes are made to it as security 
procedures change, generally due to a heightened threat environment. 
The EPH changes will in turn require each individual post EAC to assess 
the new guidance and make appropriate changes to their EAP.

    Question. The Bureau of Diplomatic Security oversees the anti-
terrorism assistance program. The funding for this program has 
increased significantly in recent years, especially since September 11, 
2001. The request for Fiscal Year 2004 is $106.4 million, an increase 
of over $40 million compared to the FY 2003 request. The Congressional 
Budget Presentation indicates that a recent program assessment 
concluded that it is ``moderately effective.''

          a. The number of people in the Office of Anti-Terrorism 
        Assistance is the same in the request for FY 2004 (15) as in FY 
        2000, when the program was funded at a level of $31 million. Is 
        this number of staff sufficient to manage these kinds of 
        budgetary increases? If so, why?

          b. Please provide information about the program assessment 
        which found the program ``moderately effective.'' What 
        problems, if any, did the report identify?

    Answer.
          a. The overall number of individuals supporting Antiterrorism 
        Assistance (ATA) programs has grown dramatically with budget 
        gains, to more than 90 individuals, through increases in the 
        number of contractors employed by ATA. Although there are many 
        advantages to the utilization of contractors for the kinds of 
        programs ATA operates, additional full time, State Department 
        employees in supervisory positions would enhance overall 
        program management. ATA is seeking reorganization for 
        additional supervisory positions through the Department of 
        State personnel system.

          b. The rating referred to in the question above came from the 
        Office of Management and Budget's Program Assessment Rating 
        Tool (PART). Introduced for the first time in the President's 
        FY 2004 budget presentation, PART is an element of an ongoing 
        effort to assess the effectiveness of federal programs and to 
        hold agencies accountable for accomplishing results. The PART 
        evaluation considers four critical areas of assessment: purpose 
        and design, strategic planning, management, and results and 
        accountability. Scores in each of these areas are combined to 
        achieve an overall qualitative rating that ranges from 
        Effective, to Moderately Effective, to Adequate, to 
        Ineffective. Programs that do not have acceptable performance 
        measures or have not yet collected performance data generally 
        receive a rating of Results Not Demonstrated. OMB completed 
        reviews for 234 programs for this year as a representative 
        sample of government programs. More than half of all programs 
        reviewed (50.4 percent) received the Results Not Demonstrated 
        rating. 5.1 percent were judged Ineffective; 14.5 percent 
        Adequate; 24.0 percent Moderately Effective; and just 6.0 
        percent Effective. Although the Antiterrorism Assistance 
        Program's overall rating of 78 percent was comparatively 
        favorable to other State Department and US Government programs, 
        the PART review indicated that ATA has not fully satisfied the 
        requirement for ``measurable long-term outcome goals.'' ATA has 
        numerous anecdotal success stories of course graduates from 
        many different countries using their training to free American 
        hostages or identify the perpetrators of a terrorist bombing. 
        However, ATA is now also developing objective country-by-
        country measures of effectiveness that will enable it to better 
        calibrate national progress and returns on training and 
        equipment investment.

    Question. General Taylor, you indicated that there are RSOs in 157 
countries. We have posts in 186 countries. Who performs the functions 
of a security officer in the remaining 29 countries? Is such coverage 
adequate? If so, why?

    Answer. Security is a major concern at each post and we believe 
coverage is adequate because Regional Security Officers and Post 
Security Officers are assigned to every location in the world. Of the 
remaining countries (29), 15 have no American presence and 14 are 
smaller facilities such as those in the South Pacific (Micronesia, 
Solomon Islands, Marshall Islands) and Caribbean (St. Johns, St. 
George's). An American Post Security Officer who is overseen by a 
nearby RSO provides the security function. The RSO will visit the post 
quarterly and is always available for guidance. DS will continually 
monitor each security situation and workload to assign an RSO when 
needed, but a more effective use of assets has been a second officer at 
a larger, busier post.

                                 ______
                                 

  Responses of Maj. Gen. Charles E. Williams (Ret.), OBO Director and 
   COO, Department of State, to Additional Questions for the Record 
               Submitted by Senator Joseph R. Biden, Jr.

    Question. General Williams outlined an ambitious program to 
construct over 160 new Embassy compounds worldwide over the next 12 
years. Even a dozen years is, however, a long period of time given the 
security threat.

          a. Is there a way to complete 160 projects on a faster 
        schedule?

    Answer. As General Williams indicated in his testimony on March 20, 
2003, OBO currently has the capacity to manage $1.8 billion in NEC 
projects on an annual basis. At that funding level the job could be 
completed less than 12 years.
    If additional funds were made available, OBO would be prepared to 
make the appropriate adjustments in its staffing levels and management 
structures to accommodate an even more aggressive schedule for 
constructing New Embassy Compounds.
    As was also noted in the testimony, the Department's major new 
initiative, the Capital Security Cost Sharing Program, establishes the 
mechanism to allocate the costs of an accelerated program throughout 
agencies at our overseas missions. At present, other agencies 
contribute only to the operating costs of our facilities, but 
contribute nothing for the capital cost of the long-term facilities 
they use. The initiation of this Program was announced in the 
President's Budget for Fiscal Year 2004, with actual allocations to 
other agencies to commence in FY2005. The full implementation of this 
program plus the current level of appropriations funds would allow OBO 
to accelerate the program from 26 years to 12.

          b. Are there any other legislative impediments that stand in 
        the way of your doing your job quickly and efficiently that 
        Congress should consider?

    Answer. The most important consideration is consistency of funding 
levels. The success of the Capital Security Cost Sharing Program 
depends on assured, long-term funding. In order to maintain the 
interest of private industry, funding levels must be maintained over 
the long term and can not be reduced after a few years.
    We believe that the Capital Security Cost Sharing Program is fully 
justified by our need to relocate U.S. Government employees overseas 
into secure, safe, and functional facilities as soon as possible. In 
addition--and as an added benefit--it also has a strong ``rightsizing'' 
component: For each overseas employee, agencies and departments would 
have to pay into the fund for new, secure office space.

    Question. The Congressional Presentation Document for OBO's Design 
and Engineering function contains a program increase of $1.2 million 
for ``Increase in Travel (Business Class)''. Please elaborate on the 
nature of this increase. Has there been a change in policy or practice 
with regard to use of business class travel?

    Answer. The cost and amount of TDY travel conducted by OBO's Design 
and Engineering (DE) division has increased significantly due both to 
departmental changes in the travel policy and changes in the number of 
division staff and their roles and functions following OBO's 2001 
reorganization.
    2002 regulatory changes in departmental travel policy increased the 
amount of authorized business class travel, increasing DE travel costs. 
Revisions to Department of State's regulations (Foreign Affairs Manual 
6 FAM 147.2-4) require, with narrow exception, that travelers be 
provided business class air accommodations for all TDY or Permanent 
Change of Station travel of 14 hours duration or longer.
    The number of DE staff traveling and the number of TDY trips 
accomplished have also dramatically increased. Following the 2001 OBO 
re-organization of offices and divisions, all OBO design and 
engineering functions were consolidated in the DE Division. As a 
result, DE grew by 30 additional staff members previously assigned to 
other OBO divisions: Security Engineering (15), Design Management (10), 
and Fire Protection (5), many of whom travel frequently. These 
increased travel costs could not be absorbed within the current 
operating budget. In addition, CEO's Standard Embassy Design (SED) 
strategy also now requires that DE architects and engineers travel to 
project sites to support the SED planning function. Given the enlarged 
OBO mission to construct, renovate, and maintain secure and functional 
facilities in 260 embassies and consulates, DE has also been required 
to support a greater number security, construction, and maintenance 
projects worldwide. This, too, has resulted in increased TDY travel.

    Question. Of the New Embassy Compounds requested in FY 2004, do the 
costs for the NOB set forth in the budget include land costs?

    Answer. Land costs for the New Embassy Compounds requested in the 
FY 2004 budget are not included. Site acquisition costs for Accra, 
Ghana; Belgrade, Serbia-Montenegro; Lome, Togo; Panama City, Panama; 
and Surabaya, Indonesia were included as part of the FY 2003 budget. 
The sites for the Algiers, Algeria and Berlin, Germany NECs as well as 
the Abuja, Nigeria and Kingston, Jamaica USAID Buildings are already 
USG-owned. The decision to buy a new site or utilize an existing USG-
owned site in Rangoon, Burma is still under consideration. Site 
acquisition funds requested in the FY 2004 budget will be used for 
purchasing sites during FY 2004 for NECs to be built in FY 2005 and 
beyond. Our FY 2004 request includes $63.2 million for site 
acquisitions and planning for future NECs.

    Question. Of the New Embassy Compounds requested in FY 2004, please 
provide information on the design/construction parameters as to size--
that is, whether the post is based on the ``small'', ``medium'', or 
``large'' standard design.

    Answer. The Standard Embassy Design (SED) allows the Department to 
take advantage of standardized designs based on staffing requirements 
of embassies. This reduces the time to construct facilities overseas 
and their overall cost. There are three SEDs:

  <bullet> Small <4300 sq. meters
  <bullet> Medium 4300-7400 sq. meters
  <bullet> Large >7400 sq. meters

    Surabaya, Indonesia is a small SED. Algiers, Algeria and Lome, Togo 
are medium SEDs. Accra, Ghana; Belgrade, Serbia-Montenegro; and 
Rangoon, Burma are large SEDs.
    Berlin and Panama are considered ``Special'' Embassies as their 
size is beyond the parameters of a large SED due to extraordinary 
security or operational needs.
    The USAID buildings for Abuja and Kingston are not considered a 
part of the SED program. However, based on their size, they would be 
considered small.

    Question. General Williams, your presentation indicates that there 
is a ``participating contractor pool for the NECs'', which now consists 
of 14 such contractors. Please explain how contractors are selected and 
qualify for participation in the pool. What does membership in the pool 
signify? What are the names of the 14 contractors? Are all such 
contractors U.S. firms?

    Answer. The process starts with contractors responding to an 
advertised synopsis. The pool consists of prequalified contractors 
selected on the merits of their technical proposals that demonstrate 
the contractors' ability to meet established criteria; such as adequate 
financial resources, record of past performance, and technical 
capabilities. Several of the companies that are in the 2003 NEC pool 
are from the 2002 NEC prequalified contractors list, since the 
prequalification is good for two years. These fiscal year 2002 
companies merely had to submit a letter of interest in response to the 
2003 NEC program. All of these companies are U.S. firms. The list of 
firms that have been in the pool over the past several years include:

  <bullet> Caddell Construction Co.
  <bullet> J.A. Jones Construction Co.
  <bullet> Hensel Phelps Construction Co.
  <bullet> Fluor Intercontinental
  <bullet> B.L. Harbert Int'l., LLC
  <bullet> ABB SUSA, Inc.
  <bullet> HB Zachry Co. (International)
  <bullet> Perini Corp.
  <bullet> HITT Constructors
  <bullet> Jordon Construction
  <bullet> Parsons
  <bullet> Dick Pacific
  <bullet> Carothers Construction/Arkel International (Joint Venture)
  <bullet> AECON/Leo Daly (Joint Venture)

    As new NEC projects come in for FY 2003, they will be advertised so 
that new firms will be given the opportunity to prequalify, and be 
added to the pool.

    Question. To what degree are contractors for NECs subject to 
competition?

    Answer. NECs are competed in both phases of the solicitation 
process. A technical competition is held in the prequalification phase, 
and a price/technical competition is held among the list of 
prequalified firms in the second phase. The result of this two-phase 
competition action will result in a contract that offers the best value 
to the U.S. Government.


</pre></body></html>
